<html>
<title> - ALTERNATIVE PERSPECTIVE ON THE PRESIDENT'S STRATEGY FOR IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                          [H.A.S.C. No. 110-4]
 
      ALTERNATIVE PERSPECTIVE ON THE PRESIDENT'S STRATEGY FOR IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 17, 2007


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]











                     U.S. GOVERNMENT PRINTING OFFICE

37-305                     WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                      Erin Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Regina Burgess, Research Assistant
                   Margee Meckstroth, Staff Assistant




















                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, January 17, 2007, Alternative Perspective on the 
  President's Strategy for Iraq..................................     1

Appendix:

Wednesday, January 17, 2007......................................    55
                              ----------                              

                      WEDNESDAY, JANUARY 17, 2007
      ALTERNATIVE PERSPECTIVE ON THE PRESIDENT'S STRATEGY FOR IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Kagan, Dr. Frederick W., Resident Scholar, American Enterprise 
  Institute......................................................     9
Korb, Dr. Lawrence J., Senior Fellow, The Center for American 
  Progress.......................................................     7
Perry, Dr. William J., Center for International Security and 
  Cooperation, Stanford University...............................     4

                                APPENDIX

Prepared Statements:

    Korb, Dr. Lawrence J.........................................    65
    Perry, Dr. William J.........................................    59

Documents Submitted for the Record:
    Choosing Victory--A Plan for Success in Iraq, Executive 
      Summary submitted by Frederick W. Kagan....................    81

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]















      ALTERNATIVE PERSPECTIVE ON THE PRESIDENT'S STRATEGY FOR IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 17, 2007.
    The committee met, pursuant to call, at 1:20 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Welcome, ladies and gentlemen. This is the 
second Armed Service Committee hearing of the 110th Congress. 
First, I want to thank the members for doing a good job last 
week during the first hearing abiding by the five-minute rule. 
We will continue that effort and five minutes means five 
minutes, and I appreciate your cooperation along that line. I 
have to shorten up the time because I do know that two of our 
witnesses, Dr. Perry and Dr. Kagan, must leave at 4:15 and 4:30 
respectively, as I understand it. And so we can get as many 
members to ask their questions in their five minutes, we are 
going to ask the presentations be limited to four minutes, if 
at all possible. I think you have been contacted on that. My 
favorite phrase is ``Please do it in 25 words or less.'' We 
will take it in a few more than 25. But if you can do that, we 
will certainly appreciate it.
    Last week the President appeared before the American people 
and outlined a plan in Iraq which includes the increase of 
American troops. The next morning, Secretary of Defense Gates 
and General Pace appeared before us and discussed the 
Administration's plan in greater detail.
    Today we will hear perspectives on and alternatives to that 
plan. Joining us today is Dr. William Perry who was the 
Secretary of Defense when President Clinton was President, and, 
more recently, a member of the Iraq Study Group; Dr. Lawrence 
Korb who served as an Assistant Secretary of Defense from 1982 
through 1985 and is at the Center for American Progress; and 
Dr. Frederick Kagan, former history professor at West Point, 
now a scholar at the American Enterprise Institute. You all 
have their full biographies in front of you, and I am sure you 
will know that this is a very impressive trio that we have, and 
we look forward to hearing from them.
    Over the last month or so, I have made a point to emphasize 
that under my chairmanship, this committee would redouble our 
efforts in pursuing oversight responsibilities under which we 
are charged by the Constitution. This is an important hearing. 
It is part of that process. We have heard at some length the 
Administration's position on the way forward in Iraq. As we 
consider that position, it is also our responsibility to 
explore our alternatives. We must weigh the pros and cons of 
each. Now, while the President's choice may be limited, it does 
not relieve us of the obligation to fully explore the 
ramifications of that policy. Additionally, by challenging the 
Administration on the specifics of the plan, any plan, we 
compel them to defend it in detail, warts and all. And where 
those warts are serious flaws, this process will expose them.
    The light we shine on them will enable us to explore those 
problems before we ask our service members to execute a flawed 
policy again.
    No longer will this Congress allow any vague statement of a 
half-formed plan from this or any other Administration to pass 
by without serious questioning--and there will be serious 
questioning.
    Furthermore, we are a government for the people and by the 
people. A robust hearing and oversight process gives the 
American people the opportunity to understand the full range of 
implications inherent in the policies of their government.
    The war in Iraq is the single most critical issue facing 
our country today. The outcomes of this conflict will have 
repercussions that affect United States national security for 
decades and will reverberate throughout the Middle East and, of 
course, the rest of the globe. Therefore, it is important that 
we proceed in a way that allows us to refine our policies and 
develop the best plan possible while keeping our citizens fully 
informed.
    At the hearing last week I was pretty clear about my 
concerns regarding the type of troop increase. I won't go back 
through them today, except to note that we have got a real 
problem on our hands. It is past time for the Iraqis to assume 
greater responsibility for their own security. And whatever we 
choose to do, it needs to contribute to the overarching goal of 
reducing our force levels there in the next several months. 
That is how we will continue to watch out for the welfare of 
our forces and hedge against strategic risk, which is a real 
problem before us.
    Today we are looking forward to hearing what you think 
about the way forward in Iraq. We should not lose sight of the 
fact the President has made his choice on what to do and our 
options in this case are limited. Therefore, I hope you spend 
some time discussing the implications of his plan, your ideas 
for improving it, and ways to evaluate its success as we move 
forward.
    And before I ask my friend and colleague Mr. Hunter, 
Ranking Member, for his comments, let me again remind you that 
I intend to adhere strictly to the five-minute rule, and I know 
last week you did a very good job in that regard, and I hope 
that we can do the same today.
    I introduce now the Ranking Member, Duncan Hunter, my 
friend from San Diego, California. I got it right.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. I want to thank my good friend, the Chairman, 
Ike Skelton, and join with him in welcoming our guests to this 
very, very important hearing by the committee.
    Last week President Bush and his advisers met with 
congressional leaders to discuss this new strategy for Iraq, 
and the President then outlined this plan of the American 
people both in an address to the Nation and in several media 
interviews. And after that, Secretary of Defense Gates and 
Chairman of the Joints Chief of Staff, Chairman Pace, provided 
more detail before the committee, including information about 
the strategy's three key pillars. In fact, General Pace 
referred to the strategy as a three-legged stool, so that if 
any one of these elements, political, military, or 
reconstruction is missing, the strategy cannot stand. I agree 
that to have a chance of success, any strategy or proposed 
alternative needs to rest on these elements, and I think we 
have received a lot of information about each. But I look 
forward to hearing your assessments of the Administration's new 
plan in these areas.
    Gentlemen, from my perspective, we are on the second phase 
of a basic blueprint that we have used for 60 years to bring 
freedom to other nations, whether you're talking about Japan or 
the Philippines or El Salvador, and that is, you stand up the 
free nation or government, you stand up a military capable of 
protecting that free government, and, third, if you don't have 
an external force like the Warsaw Pact backing the division 
that stayed on the overfold of the gap for so many years, the 
Americans leave.
    We are right now in the most difficult part of this 
challenge, which is standing up an Iraqi military apparatus 
capable of protecting that free government. And let me just lay 
out for you what I have taken from the President's statement 
with respect to the Baghdad plan, and I would hope that you 
could comment on this perspective and add to it or subtract 
from it if there are portions that you think we have missed in 
this plan.
    But this plan involves the sectoring of Baghdad into nine 
sectors; the establishment of an Iraqi brigade in each of the 
sectors. The brigade may have two or three maneuver battalions, 
and backing up those battalions is an American battalion. And a 
recommendation that we have made to the President, a number of 
us have made, is to bring Iraqi battalions from the quiet areas 
of Iraq--that is, 9 of the 18 provinces that average less than 
one attack a day--and saddle them up and move them into the 
night and rotate them and move into Baghdad or the Sunni 
Triangle or Al Anbar.
    As I understand it, three brigades that will be moving in 
for the Baghdad operation will, in fact, come from three of 
these provinces that are relatively quiet.
    Now, my recommendation has been to the Administration that 
we could use this blueprint, this idea of having several Iraqi 
battalions in front, in operations in contentious zones, backed 
by an American battalion and, of course, utilizing embedded 
American forces to mentor and to advise down to the company 
level in the Iraqi battalions; but we could use that blueprint 
to stand up virtually the Iraqi force. That is the full 114 
battalions that have been described to us by the Department of 
Defense as having been trained and equipped by U.S. forces.
    So I would like you to comment on that, on the prospects of 
using the Baghdad plan as a pattern to stand up the full 
complement of Iraqi forces. And I think if this works in 
Baghdad, that that has some promise.
    You know, I have looked at the--and I am sure other members 
of the committee have also looked at the other commitments that 
the Iraqi government has made that the President has reported 
to us have in fact been committed to, but obviously have not 
been executed with respect to consolidation, the division of 
petroleum assets, and of course the modification of the 
deBaathification plan and other things such as handling the 
former officers in Saddam Hussein's military. And of course 
there are a number of elements of this plan that are controlled 
by the Iraqis and that will require execution by them, and we 
will see if they deliver on this plan.
    I would simply say at this time we have a plan that the 
Commander in Chief--as the person who has been elected by the 
people of this country to carry out our military policies and 
to put forward those military policies--the President, has come 
up with this plan, and he is delivering reinforcements in the 
strength of 21,500 troops to the Iraq theater; 4,000 of those 
reinforcements to go to Al Anbar Province where the Marines 
have requested them, and I verified that in talking to Marine 
commanders. They do feel that they need those additional 4,000 
Marines. And, of course, the remainder of the troops to be 
dedicated to the Baghdad plan and other operations in the Sunni 
Triangle and the Baghdad area.
    It is my position that when you have a shooting war and the 
President of the United States, the Commander in Chief, is 
moving reinforcements to execute a plan in that war and to 
execute the strategy in that war, that it would be unthinkable 
for Congress, either body, to move to cut off the 
reinforcements to the American forces that are presently 
working in the war.
    So I would like, along with your analysis of how you think 
this plan is going to work, your own observations as to whether 
or not you think that that is an appropriate move by the 
legislative body to move to cut off reinforcements or to cut 
off supplies for the troops that are in theater or the troops 
who are arriving in theater.
    So I want to thank my great colleague, the gentleman from 
Missouri, for holding this hearing. I think it is absolutely 
timely, and I look forward to your comments.
    Thank you Mr. Chairman.
    The Chairman. I thank the gentleman from California.
    We welcome you, gentlemen, and if you can summarize in four 
minutes to give us time for questioning, we would certainly 
appreciate it.
    Dr. Perry.

  STATEMENT OF DR. WILLIAM J. PERRY, CENTER FOR INTERNATIONAL 
         SECURITY AND COOPERATION, STANFORD UNIVERSITY

    Dr. Perry. Thank you very much, Mr. Chairman.
    The Chairman. Would you turn that on, please?
    Dr. Perry. I am going to submit my testimony for the 
record, if I may, and I will give only highlights from that 
testimony in my oral comments.
    The Chairman. Thank you.
    Dr. Perry. In December, the Iraq Study Group (ISG), a 
bipartisan group formed by the Congress, concluded nine months 
of study and proposed a new way forward. Last week President 
Bush announced his new way forward that is significantly 
different from the ISG's recommendations. So in my testimony 
today, I will explain the differences in the two approaches and 
why I believe the ISG's proposal serves our country better.
    We may never know whether the Administration's goal of 
achieving a democratic stable government in Iraq was, in fact, 
feasible since the Administration's attempts to do so, were 
burdened with serious strategic errors. The Administration 
failed to get support from regional powers, from key allies. 
They did not send in enough troops to maintain security after 
the Iraqi Army was defeated. They disbanded the Iraqi Army, 
police, and civil servants a few weeks after the Iraqi Army was 
defeated. And they pushed the Iraqi Provisional Government to 
establish a constitution and hold elections by the end of 
faulty processes, and not adequately protect minority rights, 
thus setting the stage for a bloody power struggle between 
Sunnis and Shias.
    The cumulative effect of all of these strategic errors is a 
disastrous security situation in Iraq which continues to 
deteriorate. Each month, hundreds of U.S. military personnel 
are killed or wounded. Each month, several thousands of Iraqis 
are killed. Well over a million Iraqis have left the country, 
including large numbers of Iraqi professionals, and the 
violence is still trending up.
    As grim as this situation is, it could become even worse 
when U.S. soldiers leave. But that could be true whether we 
leave a year from now or five years from now. In the face of 
this growing disaster, the Congress commissioned an independent 
bipartisan study charged to its consensus on the way forward in 
Iraq. Our report called for a change in mission, a 
reinvigoration of diplomacy in the region, a strengthening of 
the Iraqi government and the beginning of group redeployments.
    The change in mission proposal was key to everything else 
in the report. We believe that we should try to strengthen the 
ability of the Iraqi government to stem the sectarian violence. 
We believe there was--we should continue our efforts to defeat 
al Qaeda in Iraq. We believe that we should reduce the 
commitment of our ground forces in Iraq and reestablish their 
readiness for other missions.
    We recommended the following actions to carry out these 
missions:
    First, shift the mission of U.S. troops from combat 
patrolling to training and embedding.
    Begin pulling out U.S. combat brigades with the goal of 
having all out by the first quarter of 2008, except for a 
strong rapid reaction force needed for force protection and to 
continue the fighting against al Qaeda in Iraq.
    Continue to support Iraqi forces with intelligence 
logistics in their support.
    Provide both positive and negative incentives for the Iraqi 
government to accelerate the reconciliation process and oil 
revenue sharing so the Sunnis have a stake in a stable Iraq.
    And, finally, mount an intense diplomatic effort to 
persuade friendly regional powers to assist economically, 
politically, and with training, and to put pressure on 
unfriendly regional powers to stop arming militias and 
fomenting violence.
    If the recommendations of the ISG would be followed, many 
of our combat brigades would be out of Iraq this year. The 
Defense Department at that time would have a huge budget and 
management problem in restoring them to full combat readiness. 
This problem is of special concern to this committee because of 
your constitutional responsibilities. The Army, all of whose 
brigades were at high readiness level at the beginning of the 
war, is dangerously close to being broken, and low readiness 
levels invite contingencies. Indeed, our security may have 
already suffered because of the perception of Iran and North 
Korea that our forces are pinned down in Iraq.
    We also need to reconsider the role of the National Guard, 
since the compact with these citizen soldiers has been 
shattered by extended deployments that have caused many of them 
to lose their jobs or even their families.
    Last week, the President announced what he called a ``new 
way forward'' in Iraq. His strategy calls for adding more than 
20,000 combat forces, the bulk of them who are employed in 
securing Baghdad.
    When the ISG was in Baghdad, we discussed the Baghdad 
security problem with General Casey and General Chiarelli and 
asked specifically if they could increase the likelihood of 
success if they had another three to five American brigades. 
Both generals said no. They said that the problem of conducting 
combat patrols in the neighborhoods of Baghdad had to be 
carried out by Iraqi forces, and that bringing in more American 
troops could delay the Iraqis assuming responsibility for their 
own security, and that any solutions to the security problem 
required the Iraqi government to start making real progress in 
political reconciliation.
    That assessment was consistent with what we had heard from 
General Abizaid in an earlier briefing in the United States.
    I believe we should stay with the recommendations of our 
most recent commanders in Iraq and not send in more American 
combat forces.
    The best chance of bringing down the problems in Iraq lies 
within the Iraqi army, and we can improve their chance of 
success by using U.S. ground forces to provide the on-the-job 
training that would result from embedding American troops in 
Iraqi combat units, as proposed by the Iraq Study Group. 
Moreover, none of this military action will be effective unless 
the Iraqi government moves promptly to carry out the programs 
of political reconciliation they have committed to do. This 
involves the sharing of powers and the sharing of oil revenues 
with the Sunnis. The Iraqi government has delayed carrying out 
these programs for almost a year now.
    Our proposals: the Iraq Study Group proposal puts real 
pressure for timely action on the part of the Iraqi government. 
We are sending in additional American troops, providing the 
Iraqi government with the rationale for further delays.
    The President's announced strategy also entails diplomatic 
actions that are far less comprehensive than envisaged by the 
ISG, and none at all with Syria which plays a pivotal role in 
the region and with whom we could have considerable leverage.
    In sum, Mr. Chairman, I believe that the President's 
diplomatic strategy is too timid, that his military strategy is 
too little and too late to effect the lasting and profound 
changes needed. His strategy is not likely to succeed because 
it is tactical and not strategic, because it does not entail 
real conditionality for the Iraqi government, and because it 
would only deepen the divide in our own country.
    The ISG proposal has a better chance because it recognizes 
that the key actions needed in Iraq to effect lasting results 
must be taken by the Iraqi government and the Iraqi army and 
because it divides the incentives for those actions.
    Most importantly, the recommendations of the bipartisan 
Iraq Study Group provide an opportunity for the Nation to come 
together again.
    Thank you.
    The Chairman. Thank you very much, Dr. Perry, for your 
advice and your testimony today.
    [The prepared statement of Dr. Perry can be found in the 
Appendix on page 59.]
    The Chairman. Dr. Korb.

 STATEMENT OF DR. LAWRENCE J. KORB, SENIOR FELLOW, THE CENTER 
                     FOR AMERICAN PROGRESS

    Dr. Korb. Thank you very much, Chairman Skelton. Mr. 
Hunter, it is a privilege to appear before this committee once 
again and in such distinguished company.
    Let me begin by saying that because of why we went in and 
the way we went in, some of the reasons outlined by Dr. Perry, 
there are no good options. What we have to do as a country, as 
a government, is pick the least bad option. I believe that 
rather than surging militarily for the third time in a year, we 
need to surge diplomatically. Further military escalation, in 
my view, would mean repeating a failed strategy.
    As you know, in the last six months we have surged twice in 
Baghdad; yet the violence and death of Americans and Iraqis 
have increased dramatically. An additional surge would only 
increase more targets, put more American lives at risk, 
increase Iraqi dependence on the United States, further 
undermine the precarious readiness of our ground forces, and, 
most importantly, would go against the wishes not only of the 
American people but the Iraqi people.
    Rather than escalating militarily, I believe, and we at the 
Center for American Progress and my colleague Brian Katulis and 
I have been arguing since September of 2005 the United States 
must strategically redeploy its forces from Iraq over the next 
18 months. This is the only leverage we have to get the Iraqis 
to make the painful political compromises necessary to begin 
the reconciliation process. These compromises involve balancing 
the roles of the central and provincial governments, 
distribution of oil revenues, protecting minority rights.
    Until that process is completed, let me put it very 
bluntly, we could put a soldier or Marine on every street 
corner in Baghdad and it will not make a difference.
    A diplomatic surge would involve appointing an individual 
with the stature of a former Secretary of State, such as Colin 
Powell or Madeleine Albright, as Special Envoy. This person 
would be charged with getting all six of Iraq's neighbors--
Iran, Turkey, Syria, Jordan, Saudi Arabia, and Kuwait--involved 
more constructively in stabilizing Iraq. It is important to 
note that these countries are already involved in a bilateral, 
self-interested, and disorganized way. And while their 
interests and ours are not identical, none of their countries 
want to live in an Iraq after our strategy deployment backs a 
failed state, or a humanitarian catastrophe that would lead it 
to become a haven for terrorists or hemorrhage of millions of 
more refugees streaming into their countries.
    This high-profile envoy would also address the Israeli-
Palestinian conflict, the role of Hezbollah in Syria and 
Lebanon, and Iran's rising influence in the region. The aim 
would not necessarily be to solve all of these problems but, as 
a minimum, prevent them from getting worse and demonstrate to 
the Arab and Muslim world that we share their concerns about 
the problems in the region.
    I think, finally, that the Congress must take a greater 
role in shaping Iraq policy. In terms of what Mr. Hunter said 
in the beginning, I think there are things that Congress can do 
and should do to take a greater role in shaping our Iraq 
policy. First of all, I think you can require clarification of 
the law that allows the President to mobilize guards and 
reserves for up to two years. In my view, the clock should 
start on 9/11. If a unit has been mobilized two years since 
then, before mobilizing that unit again, the President should 
come back to the Congress and demonstrate why that is 
necessary.
    I think you should require a new national intelligence 
estimate (NIE) on Iraq's internal conflict. My understanding is 
last summer congressional leaders requested that the Director 
of National Intelligence (DNI) prepare an NIE that includes an 
assessment on whether Iraq is in a civil war. I think you 
should require recertification that the war in Iraq does not 
undermine the war against global terrorist networks. The joint 
resolution of 2002 that authorized the use of force in Iraq 
required the Administration to certify that the Iraq war would 
not harm the effort against terrorism.
    And, finally, I think that you should require a 
transparent, verifiable plan that conditions funding for 
military escalation not for the troops that are already there, 
but on the performance of the Iraqi leaders to fulfill their 
commitments and responsibilities.
    I think that if we go back and we look at the history of 
our involvement in Iraq when historians write about it, they 
will find that many of us failed in our obligations to speak 
up, whether it is the Congress, the media, the academic 
community, and I think it is time for people to speak up now 
before this problem gets any worse.
    Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Dr. Korb can be found in the 
Appendix on page 65.]
    The Chairman. Dr. Kagan.

STATEMENT OF DR. FREDERICK W. KAGAN, RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Dr. Kagan. Mr. Chairman, honorable members, it is an honor 
for me to be here today to talk to you about this incredibly 
important topic. Congressman Hunter laid out a daunting list of 
topics that he would like us to address as well as our 
statements in four minutes. I will not be able to do that, but 
hopefully be able to discuss some of those issues in greater 
detail in questions.
    I think this is a pivotal movement in American history. I 
think this is a pivotal moment in world history. I say that 
without any rodomontade. I really do believe that we have come 
to a bifurcation point in the history of the world. If we lose 
in Iraq, that is to say if we allow Iraq to descend into 
complete unfettered chaos, I believe that it is extraordinarily 
likely that the conflict there will spill over into Iraq's 
neighbors, involving them in instability, involving them in 
subsidiary wars, and potentially involving them in regional 
conflict with one another. That sounds like a nightmare 
scenario that one conjures up to make people feel consequences, 
but my explorations of this issue with experts who have looked 
into it in much greater detail than I convinced me that it is, 
in fact, a very likely outcome of our possible withdrawal or 
failure to accomplish a mission of stabilizing Iraq.
    That would be a world-changing event. And I think that 
before we make the decision to constrain the President's 
options, before we make the decision to abandon this fight 
either because it is hopeless or we think it is hopeless, or 
because we think that we can accept defeat here in order to 
move on to other things, I think that it is incredibly 
important that we think very carefully through precisely what 
the consequences of our withdrawal will be. And I would urge 
this committee, as it continues its deliberations, to hold a 
number of hearings with regional experts to discuss in detail 
precisely what they think the consequences of American 
withdrawal would be, and why, and to paint that picture for you 
so that you have in it in your mind when you make your 
decision.
    I think that is one of the elements that is at root in this 
debate, the question of whether it is okay for the United 
States to lose in Iraq so as to go on to do other things, or 
whether we have already lost in Iraq and therefore should 
simply cut our losses and move on.
    I don't think that it is okay to lose for any of the 
reasons I have said, and I don't believe we have already lost. 
There continues to be a government in place in Baghdad. It is 
not functionally perfect by any means. It does not hold the 
legitimacy of the entire country, although we should remember 
that it is seen as legitimate to a very large proportion of 
Iraqis. It is not sufficient but it is a start. There are more 
than 130,000 Iraqi soldiers in Iraq, soldiers who are fighting, 
putting their lives on the line every day. They continue to 
come to work; that is a volunteer force in many senses because 
of the system of pay that imposes upon them monthly leaves. 
Iraqi soldiers effectively re-up every single month, it is a 
testament to their determination that they continue to come 
back to the colors and put their lives on the line. Once again, 
it is by no means sufficient; but neither does it look to me 
like a situation where defeat has already occurred and there is 
no prospect for turning the situation around.
    Another viewpoint, which leads to criticism of the plan 
that our group at AEI proposed and also to the President's 
plan--and I would call the committee's attention to the fact 
that what we described is by no means identical to what the 
President will--well, what the Administration has been 
briefing. We will see what actually happens--is that there is 
another way to win; that success is possible if only we would 
motivate the Iraqis sufficiently, if only we would incentivize 
them to take responsibility for their own problems in their own 
country and step up in some way.
    I would submit this is unrealistic. The Iraqi Army has been 
in existence for less than two years. They started from 
scratch. We can, if you like, debate the wisdom of the 
decisions that were made in 2003 to disband it. But those have 
become increasingly irrelevant with the passage of time. The 
fact is that we did disband it. We have tried to rebuild it 
from scratch. The problem is that we have never set as our 
military task in Iraq establishing or maintaining security or 
civil order for the Iraqi people. That is one of the first 
obligations of any occupying power, in my view. It is one of 
the first obligations of any government, and it is one of the 
key requirements of successful counterinsurgency techniques. I 
believe that it has been an error in our strategy all along 
that we have not prioritized Iraqi security. The question is: 
can we now find some way to turn that responsibility over to 
Iraqi security forces as they are constituted, with or without 
additional American forces embedded in them, to stipend and 
continue to train them in some way. In my view, it is not 
possible. And I think we must be very clear about what we are 
expecting the Iraqi forces to do and what it is reasonable to 
expect the Iraqi forces to do.
    Clearing and holding prepared insurgent strongholds is a 
very high-end military task. It requires the very high ability 
to plan operations, very high abilities to coordinate various 
aspects of military and diplomatic and political and economic 
power, and a very high ability to operate with a very high 
degree of professionalism in a very dangerous situation and 
very complex situations. That is an extraordinarily high-level 
thing. It is something that our American soldiers are capable 
of doing and have done on numerous occasions. It is not 
something that is reasonable to expect a fledgling army to 
undertake, and I believe that it has already been an error in 
our strategy to say it is only when the Iraqis can accomplish 
such a task that we will be able to turn responsibility over to 
them.
    Instead, I believe that we need to lower the bar for the 
Iraqis to a point where we can reasonably expect them to obtain 
it, and we do that by lowering the overall level of violence in 
the country to the point where the main responsibility on the 
Iraqi security forces is to sustain and maintain order that we 
have already largely helped them to establish. That is a task 
that I believe will be within their capabilities by the time we 
are done with this process. And it is why I and some of the 
members of our group have urged that we have a fundamental 
change in our strategic approach to Iraq.
    This is not a question of tactics, this is a question of 
strategy. What we are saying is that rather than saying that 
our number one priority in Iraq is training and transitioning, 
we will say that our number one priority in Iraq at this moment 
is establishing the security that is an absolute precondition 
for any sort of transition.
    I would add that it is also a precondition for the sort of 
political compromise that this committee quite rightly insists 
that the Iraqis must carry out. It is simply unreasonable and 
unrealistic to ask people or expect people facing the level of 
sectarian violence that is now ongoing in Iraq to make the hard 
compromise and make the hard choices that they will ultimately 
have to make. It is simply not going to happen in this security 
environment. We must first bring the security level to a much 
higher point, and then it will be possible.
    And last, I would point out that if you peel this onion a 
little bit more, you will see that one of the things that we 
want to do is to encourage, shall we say, Prime Minister Maliki 
and his government to disarm the Shia militias, and this has 
become increasingly the test in the American political 
discussion about whether or not that government is serious. The 
problem is that as long as we are not providing security, as 
long as we are not protecting the Shia population, those Shia 
militias are seen as the protectors of the Shia population. It 
is very, very hard to imagine how Prime Minister Maliki could 
require those militias to be disbanded without having a 
reliable alternative to offer to the Shia population about how 
they will be protected from Sunni attacks.
    I submit to this committee that if we change our strategy 
in Iraq and if we provide the additional forces necessary to 
carry out that strategy, it will be possible to reduce the 
level of violence to the point where the prime minister will 
gain the necessary leverage within the Iraqi political system 
to make the changes that we desire. Will he at that point do 
it? I can't promise the committee that, and we will have to 
see. What I am confident of is that the forces that we have 
proposed in our report to send to Baghdad, along with the 
change of strategy, can dramatically reduce the level of 
violence in the capital and create the possibility for a much 
more successful outcome.
    The Chairman. Thank you.
    And, gentlemen, thank you for your excellent testimony and 
your thoughts as well as your wisdom.
    At this point, I will reserve my questioning for a short 
time, and the gentleman from California, Mr. Hunter.
    Mr. Hunter. Mr. Chairman, following your lead and the fact 
that we didn't get through all of our membership in our last 
full committee hearing, I will reserve mine, too, and let us 
let our other members get their questions. And I have to leave 
for a quick emergency meeting, but I will come back and weigh 
in here as we get toward the end of the meeting.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Spratt.
    Mr. Spratt. Thank you, Mr. Chairman. And thank all three of 
you for your excellent testimony.
    One of the key issues before us is an eventual schedule of 
benchmarks or specific things that the Iraqi government is 
expected to accomplish. What sanctions--because we have not 
specified any--but if we want to link these somehow to 
sanctions or to incentives, carrots or sticks, how could we do 
that and what would those sanctions or incentives be? The whole 
panel, any one of you.
    Dr. Kagan. Yes. I would say that it was a very excellent 
point that you make that we might want to consider carrots as 
well as sticks here. I think that too often we have had 
discussions of incentivizing Iraqis that really focus on 
threatening them. I would not threaten them with the withdrawal 
of our forces, which is the only thing right now which prevents 
Iraq from falling into full-scale sectarian civil war and 
sectarian genocide.
    I think it would be appropriate to contemplate a series of 
packages, perhaps economically constructed packages, that we 
could offer to the Iraqis on the condition that they meet 
certain benchmarks. I think that would be a much better way to 
go. And remember, I would remind the committee that we are 
dealing with an allied government here in the Iraqi government, 
and it would be much better if we could find positive 
incentives for them to spur them along the path rather than be 
continually threatening them and hectoring them.
    Mr. Spratt. Mr. Korb.
    Dr. Korb. The Iraqi government elections took place over a 
year ago. They promised that within four months they would make 
the modifications to the constitution. This is before the 
violence got out of hand. They didn't do it. The fact of the 
matter is that in the 13 months since they had their election, 
we have lost 13 battalions' worth of soldiers and Marines 
killed and wounded, while we have been waiting for them.
    I believed a while ago, and I believe now, until you set a 
date certain to leave--and I would say over 18 months because 
if you go 18 months from now, this will mean we have been there 
longer than 5 years, which is certainly time enough for them to 
get their act together and fulfill our moral responsibilities 
for overthrowing that government--until you do, that they will 
not do these things, because they are tough. It is not because 
of violence. It is because they are difficult compromises to 
make. You are asking basically a Shia government to secede 
power to the Sunnis. They don't want to do that. And that is 
why I think that you have got to put the pressure on them.
    In my testimony, I mentioned metrics that you could use to 
condition the funding for this surge, steps to disband the 
ethnic and sectarian militias, measures to ensure the Iraqi 
government brings justice to Iraqi security, personnel who are 
credibly alleged to have committed gross violations of human 
rights, and then of course taking steps toward the political 
and national reconciliation.
    Mr. Spratt. Secretary Perry.
    Dr. Perry. The positive incentives we can offer the Iraqi 
government is the training and strengthening of the Iraqi 
forces not only by training them, but by embedding some of our 
forces in their units. The negative is they must understand 
that we are done with street patrolling with the U.S. Army, and 
that we are going to be pulling our troops out on a schedule, 
and that they have to step up to the plate now.
    As Mr. Korb said, they have to step up to the plate, which 
is power sharing with the Sunnis, which revenue sharing with 
the oil is a very difficult thing to do, which they do not want 
to do. We have to have pressure for them to do that.
    Mr. Spratt. Thank you very much.
    The Chairman. Mr. Saxton, please.
    Mr. Saxton. Dr. Perry and Dr. Korb, you have both indicated 
in slightly different terms that you favor setting some kind of 
a schedule for pulling out troops in order to put pressure on 
the majority Shia population and government to step up to the 
plate and do what they said they would do.
    On the other hand, Dr. Kagan asked a very pertinent 
question and that is, should we pull our troops out, what is 
the effect of that? And I think that is a very serious question 
and one that we ought to contemplate thoroughly. We know that 
the Shia government--that the majority government, excuse me, 
is mostly Shia. And we know that there is a potential, if not 
a real level of support, from outside of Iraq; namely, from 
Iran and perhaps from Syria as well.
    On the other hand, the Sunni minority finds favor in other 
countries, particularly to the south, the Saudis and 
Jordanians, and perhaps Egypt and other countries.
    And so it seems to me that a pull-out of troops at this 
point could very well result in a broader conflict, in a more 
serious conflict than what we are seeing inside of Iraq today.
    What do you think?
    Dr. Perry. Mr. Saxton, I think that the presence of our 
troops there is indeed holding down the violence. The violence 
would be greater if they were not there, and that if we pulled 
them out next week, the violence would increase. My concern is 
that that would be true if we pulled them out six months from 
now, a year from now, five years from now, if something is not 
done to deal with the political problem in Iraq. Until or 
unless the Sunnis feel that they have some stake in the 
government and some stake in the oil revenues, they are going 
to continue this--whether you call it sectarian violence or 
war, whatever you call it, it is causing huge grief in the 
country. That is the problem that has to be resolved, and 
anything we do has to be pointed toward resolving that problem.
    My own belief is the only pressure we have on the Iraqi 
government to force them to take that move is the understanding 
that they are going to have to stand alone at some time in the 
future.
    Dr. Korb. Congressman, when our troops leave, and they will 
have to leave at some date, as Dr. Perry said, we won't leave 
the region. We still have interest in the region and in the 
plan which we put forward. We can leave forces in Kuwait. The 
Kuwaitis welcome us because we liberated them in 1991. You can 
have a carrier battle group and Marine expeditionary force in 
the Persian Gulf, and if you take a look at what happened when 
we killed al-Zarqawi, the Iraqis gave the information to their 
forces, they gave them to us, we sent in an F-16 to get rid of 
them so we would still be able to apply power if something 
should happen. If Iran should try to invade or something like 
that, we would be able to take military action.
    It is also important that we do a diplomatic surge, because 
once we say we are leaving by a date certain, the countries in 
the region know that they are going to have to cope with the 
chaos that is there. Even the Iranians don't want to see 
millions of Iraqi refugees streaming into their country. They 
don't want to see it become a haven for al Qaeda because al 
Qaeda is predominantly a Sunni group, and they are Shias.
    Remember that the Iranians are cooperating with us in 
Afghanistan. Why? Because they share our goals? No. Because 
they do not want to see an Afghanistan run by the Taliban again 
because they saw that as a threat. They are building roads in 
Afghanistan. They are providing money. They provided 
intelligence to help us when we went into Afghanistan.
    Dr. Kagan. I want to say in response to these two comments, 
we have differing opinions about the objectives that the 
Iranians might have. I believe that the Iranian objective is 
regional hegemony, and I think there is a lot of basis for that 
belief. And I think a lot of countries in the region believe 
that. And I think their view of Iraq is very different from 
their view of Afghanistan. Remember, in the 1990's Iraq was the 
only state that posed an existential threat to Iran. I see no 
reason to believe that the Iranians will work to create a 
strong state in Iraq to create a threat to them.
    The Chairman. Mr. Snyder.
    Dr. Snyder. Mr. Perry, one of the specific things you say 
in your opening statement, I forget the wording that you used, 
you state that you know that al Qaeda is there; while they were 
not there in any meaningful way, that they clearly are there 
now. They have a future hold. They have it, will be in a 
position of a sustained place to train, you know, if we leave.
    Now, Dr. Korb's answer is that we can have F-16s or 
whatever. It seems like that that may be an unsatisfactory way 
of dealing with what you describe as a well entrenched foothold 
of al Qaeda now in Iraq. That is not how we dealt with the 
foothold that al Qaeda had in Afghanistan. Would you--I am 
playing devil's advocate with you on that. Would you amplify on 
that? I don't think it is going to be as clean as we would like 
it to be. We will see signs of al Qaeda's activity. We have 
troops in Kuwait. We will go in for a quick strike operation 
and take care of it. Will you----
    Dr. Perry. I want to be clear that the Iraq Study Group did 
not recommend pulling our forces out of Iraq. They recommended 
stopping the street patrols and moving our combat patrols out. 
But it also explicitly recommended keeping a strong rapid 
reaction force with two missions:
    The first mission is exactly to your point. It is 
continuing the fight against al Qaeda in Iraq. And the second 
mission is providing ongoing support for the Iraqi Army, the 
air support, intelligence support.
    So we see a relatively long-term role of the U.S. forces in 
Iraq, but in the support role of the Iraqi Army, except for 
specifically the fight against al Qaeda in Iraq that we wanted 
to have a strong combat force to carry out that mission.
    Dr. Snyder. The second point I wanted to bring up, again I 
will address to Dr. Perry and Dr. Kagan, I have been a bit 
frustrated. It seems the President and Vice President have been 
making statements, and I assume they put their heads together. 
Well, those who criticize the President's plan need to show an 
alternative. Well, the Iraq Study Group is an alternative.
    Dr. Perry. It was intended.
    Dr. Snyder. In my facetiousness I said maybe. I should get 
a letter and sign it and send it to the President and say by 
the way, here is an alternative which is a bipartisan 
alternative co-headed up by very prominent Republicans and it 
is an alternative. There are alternatives out there to the 
President's plan, it seems to me, where this is pretty 
summarily rejected by the Administration. But have you all, as 
members of the Iraq Study Group, taken some offense when you 
hear Administration people talking about there is no 
alternative out there to the plan, to the President's plan?
    Dr. Perry. Well, I hope this alternative is in front of the 
American public as a real alternative. I want to also say that 
having this bipartisan group come to a consensus on this 
recommendation was not easy. It is a very difficult problem, 
and I think great credit to Jim Baker and Lee Hamilton, who 
brought that group together, to reach a unanimous conclusion. 
They did it because we felt it was necessary to have a 
consensus in order to have any support, any credibility with 
the American public that this would be a way forward to be 
considered.
    Dr. Snyder. I, like the Iraq Study Group, I don't 
understand why the President and his people are so dug in 
against expanding diplomatic initiatives with Iran and Syria. 
But playing devil's advocate again, the Iraq Study Group does 
acknowledge the possible need for a temporary surge. I don't 
think you used the word ``surge,'' but you talk about the 
possible need for a temporary increase in troops.
    Would you reflect on that? That was what you said in the 
Iraq Study Group.
    Dr. Perry. What we said in the Iraq Study Group was if our 
military commanders believed that a temporary surge could 
happen in the Baghdad situation, that we would not be opposed 
to it. We then talked with the military commanders, and they 
did not recommend that, as I mentioned in my testimony. None of 
the military commanders who were there at the time thought that 
was a good idea.
    And in any event, what we are talking about is that the 
term ``surge'' to me and to the group meant a temporary 
increase in troops. What is being proposed now I don't see as 
being very temporary. It looks to me like a new level of 
deployment.
    Dr. Snyder. And Dr. Kagan, is 21,500 sufficient for what 
you think needs to happen?
    Dr. Kagan. Congressman, we proposed in our report a surge 
of five brigades into Baghdad, which I counted as about 25,000 
troops. There is a lot of confusion about how many brigades we 
are counting. And I believe the total surge we advocated is 
35,000 combat troops into Iraq, more than that when you add the 
support troops. I do believe that a surge of five additional 
combat brigades is sufficient to establish the objectives we 
laid out in our presentation, which is to establish security in 
the critical terrain in Baghdad and Sunni and mixed Sunni-Shia 
neighborhoods around the Green Zone.
    The Chairman. Mr. McHugh.
    Mr. McHugh. Thank you very much.
    Dr. Kagan, just to follow through on the point you were 
just making. I read your report. Refresh my memory. Are the 
numbers you are talking about in line about the current manuals 
and metrics associated with the counterinsurgency?
    Dr. Kagan. Congressman, they are. We looked at the areas 
that we thought critical to establishing security in Baghdad. 
We identified 23 districts with a population of approximately 2 
million.
    And we proposed a surge of American forces into Baghdad 
which would place a total of 50,000 or so combat troops in 
Baghdad, more when you included the support troops. And 
remember that support troops are very important in this 
conflict, and we did not take account of Iraqi forces which 
will also be there. That is sufficient to generate force ratios 
that are well within not only what is recommended in the recent 
U.S. counterinsurgency manual General David Petraeus put out, 
but were also successful in clear-and-hold operations in Tall 
Afar in September of 2005.
    Mr. McHugh. Dr. Korb, I believe I heard you to say the only 
leverage we have is the active redeployment. Don't we as well, 
though, have some leverage on funding or the lack of funding in 
the future? Why would you not include that as something that 
could motivate the Iraqis to step forward and do the things 
that they need to do?
    Dr. Korb. If you look at the reconstruction money that we 
allocated, that Congress has allocated, it is $20 billion. 
Basically, it is very difficult to spend that correctly, as 
your inspector general has told us. But my view is, as long as 
you have close to 150,000 Americans there, they are crutched. 
They know they can keep the violence down. They can postpone 
the day of reckoning for them. The funding may be marginal. The 
problem for you is once the troops get in there, you have got 
to continue to fund them.
    Mr. McHugh. I understand your point. But let me clarify. Is 
it not leverage to say to the Iraqis, say through a war 
supplemental, that we are portioning off that supplemental by, 
say, half; list some benchmark performance measures that I 
think all of us agree on, and say we will revisit continuation 
and fuller funding of that initiative and the completion of it 
based on your genuine effort? That way it is a future leverage 
rather than a more immediate one that you are talking about. 
Would that have no----
    Dr. Korb. That might have a marginal impact, but I think 
the only card you have really left in terms of getting them to 
do these things is the presence of American troops because 
basically it is a crutch on which they can rely. And if you go 
back and you take a look since they have had their election, it 
is over a year and they haven't done anything. And the question 
becomes why haven't they taken even step one to do what they 
need to do? And in my view, basically it is because it is 
dependent on us. Remember that Generals Casey and Abizaid came 
before the Congress: more troops will increase the dependence. 
We don't need to do that.
    Mr. McHugh. Well, I met with General Casey two days ago. I 
got back from Iraq yesterday, and he is in support of this. I 
want the record to show that as well is General Odieno. Whether 
or not he is right is another issue. That is why we are here 
today. But he has kind of agreed on the direction and the 
opportunity that it provides.
    Let me ask you another question. In all the meetings that 
we had in that visit from Prime Minister Maliki to the speaker 
of the Iraqi parliament to the national security adviser, 
foreign minister, and our ambassador as well as our military 
leaders, they said that deadlines and threats of withdrawal at 
a date certain do nothing more than encourage their enemies, 
the insurgents, particularly al Qaeda, to stick it out. Would 
you want to comment on that?
    Dr. Korb. I think it is important that--the Intelligence 
Committee tells us that al Qaeda groups represent two to three 
percent of the people causing the violence. The main problem is 
the civil war. It has morphed into a civil war. Remember that 
95 percent of the Iraqis don't support al Qaeda, and if we were 
to leave or announce a date certain, you would get less support 
for al Qaeda in Iraq from the Iraqi people. A lot of them are 
making common cause with them now because they want us to get 
out. Remember that more than 70 percent of the Iraqis want us 
out within a year; 60 percent think it is okay to kill--okay to 
kill Americans.
    So I think when you look at the threat now, the main threat 
is a civil war. Our troops are primarily refereeing a civil 
war. They are not fighting al Qaeda. Al Qaeda is not their 
primary mission any more.
    The Chairman. Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman. Thank you 
to all of you for being here.
    Could you expand a little further on the notion that if in 
fact things stabilized, that the Iraqi government would be 
positioned to take advantage of that? What do you think would 
be the first steps that were taken; and if in fact those were 
not, do you think that then is an occasion for some of the 
negative incentives, if you will?
    Dr. Kagan. Well, I think that the first, in many respects, 
most important thing is increasing security in Baghdad would 
allow us--it would make it possible for the Maliki government 
to begin the process of bringing the militias under control. 
And I think what we need to see in Iraq as a matter of priority 
is a demobilization of Iraqi society, and what we have been 
seeing is a gradual mobilization for Iraq for civil war.
    Ms. Davis of California. Could you be specific about how 
that would occur?
    Dr. Kagan. It is hard to see into the future how this would 
be done. It would depend on circumstances. I would hope in the 
first instance, Prime Minister Maliki would negotiate with Sadr 
and his guys and some of the fringe elements in the Jaish al-
Mahdi, and work to have them demobilized. I think their falling 
of the need for them for defenders of the Shia would lead to a 
drop in recruitment, and some of their fighters would fall away 
to begin with. And I think ultimately Prime Minister Maliki 
would need to send his own reliable Iraqi security forces 
against the hard-core Jaish al-Mahdi fighters in order to clear 
them out.
    In the worse case, I think we would end up having to 
support him in that effort. But those would be some of the most 
important results that I think would be made possible by 
establishing security in Baghdad. They are absolutely not 
possible, in my opinion, until we have done that.
    Ms. Davis of California. And if I could just ask one more 
question and then I would love to have the others respond to 
that.
    What is your definition of clearing them out? Where would 
they go? Would they be incarcerated in some way? What do you 
think realistically Maliki would do with them?
    Dr. Kagan. Well, I think that many of them would be 
detained. I think many of them would be incarcerated. I think 
some of them would be ultimately disarmed and returned. Many of 
them would be simply put in jail. I think it would depend on 
the magnitude of their crimes and the level of commitment to 
continue fighting, and that is something that has to be looked 
at on a case-by-case basis.
    Ms. Davis of California. Dr. Korb.
    Dr. Korb. A couple of things that it is important to keep 
in mind: that the Iraqi Army, which is certainly much better 
than the police, basically is not a multiethnic army. People 
are still loyal to their sects and tribes, which is why in the 
last surge that we had, Mr. Maliki ordered six battalions into 
Baghdad and only two showed up. I must say when Mr. Maliki 
appointed the new head of the Army, he ignored our 
recommendations and appointed a Shia general.
    So that gets me to ponder will he take action to a Shia 
group? And the record so far I think is not--is not 
encouraging. Remember, people talk a lot about training of the 
Iraqi military. Certainly training is important. But what about 
motivation? Are they motivated to fight and die for Iraq like 
the brave young men and women we bring into our service who are 
motivated to fight and die for this great country? That is 
still lacking, and it is not going to be there until you do 
these political compromises.
    If you get the political compromise done, then there will 
be less reason for the violence. But those have got to come 
first and they have got to come sooner. We have waited a long 
time. We have been there longer than we were in World War II. 
So it is not like we came in, knocked them over and left. I 
mean, we are there a long time. We have given them these 
opportunities. And you have got to keep in mind what this is 
also doing to U.S. security around the world. We haven't 
mentioned it yet. We need troops in Afghanistan. General 
Eikenberry said that yesterday.
    Ms. Davis of California. Thank you. I want to give Dr. 
Perry a chance to respond as well, since the time is running 
out.
    Dr. Perry. I think it has been demonstrated that the U.S. 
Army, surge of U.S. Army troops, could establish security in 
Baghdad, as they did in Fallujah, as they did earlier in other 
cities. As soon as the U.S. Army troops left, the disorder came 
back again. What happened was the militia simply left the area, 
and then as soon as the U.S. soldiers left, they came back 
again. So maintaining security in Baghdad can only be done by a 
strong Iraqi Army, and that is why our emphasis was on 
strengthening the Iraqi Army.
    Ms. Davis of California. Thank you, Mr. Chairman.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Mr. Chairman, 14 years ago I joined this 
committee in the minority, sitting in the lowest seat. Most 
hearings ended, and I never had a chance to ask any question. 
Remembering the frustration of junior members, I want to yield 
my time to the lowest-ranking member on our side of the aisle, 
Mr. Geoff Davis from my first State, Kentucky.
    Mr. Davis.
    Mr. Davis of Kentucky. I want to thank the distinguished 
gentleman from Maryland for the honor he has given me. I find 
it ironic Dr. Korb mentions World War II as an analogy for 
troop presence, since we still have troops in West Germany 
right now, and I know there are bigger pictures related to the 
Cold War for that.
    I would like to step away from the immediate tactical and 
technical discussions on Iraq and go to a bigger question I 
observed personally on the ground in Afghanistan, Iraq, 
surrounding countries in the area, and that has to do more with 
the interagency process in conducting a classic 
counterinsurgency.
    I am quite confident that our troops, many of them friends 
of mine for 30 years, will do their jobs to secure the areas 
from the kinetic perspective where they are sent in to do that. 
But my question becomes what next, from a localized standpoint 
of being able to use not only existing social networks but 
using the power behind the agencies that we have?
    I have observed in numerous countries in combat arms, 
officers who are quite diligent, great, young noncommissioned 
officers serving in functions that effectively can be performed 
better by Department of Treasury, Department of Justice, 
Department of Agriculture in one case, and as well as the 
Department of State, given the personnel limitations there. One 
thing I would appreciate each of you commenting on for a moment 
is considering the symptoms that we have seen, that we are 
candidly discussing here and in other hearings, how should our 
national security apparatus be organized differently not to 
have some of the errors that have taken place promulgate 
themselves in the future?
    Dr. Perry. Mr. Davis, I think that is a great observation, 
and I welcome the opportunity to comment on it.
    I think it is a deficiency in our government organization 
today in that we can send a first-class military operation out 
to a place like Bosnia or a place like Baghdad or a place like 
Afghanistan, but we do not have the same organization in the 
civilian infrastructure that has to go in behind them. We did 
not have that in Bosnia. We did not have it in Baghdad, and I 
do believe a reorganization is needed to allow that to happen 
not only in the United States, or as a way of bringing the 
Justice Department, the State Department and so on into this 
kind of an organization, but into our North Atlantic Treaty 
Organization (NATO) as well, which similarly lacks it.
    When we go into Baghdad or Bosnia with military, we go in 
with a professional team that has worked together, that has 
trained together and that is trained to do that job. When we go 
in with civilians after that, we go in with a pickup team that 
has not had the right kind of training, that has not worked 
effectively together, effectively with a military counterpart. 
And I think that needs to be corrected, and I think you are 
heading in the right direction.
    I would encourage this committee to look for legislation 
that might push us in that direction.
    Mr. Davis of Kentucky. So you support expanding jointness, 
both from a personnel policy standpoint over the----
    Dr. Perry. Absolutely.
    Mr. Davis of Kentucky. Dr. Korb.
    Dr. Korb. Yes, I agree because we are asking the military 
to do too much. And part of the reason is not only, as Dr. 
Perry said, that they work together, they have these skills, 
and they can order people into dangerous zones, where in the 
other agencies you are looking for volunteers to go. So I think 
we need to work more on that, and we need to send our best 
people over there. I believe, reading the book Inside the Green 
Zone, they were sending people there more based on political 
loyalty to them than confidence, and I think that has set back 
the effort even more.
    Mr. Davis of Kentucky. Dr. Kagan.
    Dr. Kagan. Congressman, I would first like to observe that 
whatever we have in terms of reforming an interagency, it is 
not going to happen this year. It is not going to happen by 
March, and it is not going to happen in time to affect the 
operations that are going to be underway in Iraq right now. And 
so what I would say is, unfortunately, I think in the short 
term we are going to have to continue to place the burden on 
the military, and I would encourage Congress to make the 
necessary authorizations to allow military commanders to do 
what is necessary in recognizing that. In the long term, the 
problem that you raised absolutely has to be addressed, but I 
would make one point to add to those of my colleagues.
    It is a very different thing, knowing how to do something 
and knowing how to teach how to do something, and I am 
concerned that we have become so focused with making some sort 
of deployable State Department where you can pick a lot of 
people who know how to do the various things that you want to 
have done and send them over there, and the instinct of people 
like that is to do them. But if the issue is actually, in many 
of these cases, helping to teach the Iraqis how to do these 
things, that requires a different sort of training and a 
different sort of skill set, and so I think this problem 
actually is even deeper and more complex, and we will soon be 
figuring out how to get all of the agencies on the same sheet 
of music.
    It actually goes to the question of creating an 
organization that is able to train new democracies, whether we 
have invaded them or not, and help them develop full democratic 
standards.
    The Chairman. Thank you very much.
    I might mention at this juncture that what we know as 
Goldwater-Nichols--and I think you are making reference to what 
some of them term as Goldwater-Nichols II, which of course 
would be multiagency. I might point out that it started in 1982 
and finally was passed into law by this Congress in 1986. It is 
a massive undertaking, I think, even more because only this 
committee and then our counterpart in the Senate dealt with 
Goldwater-Nichols, the original Goldwater-Nichols.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman, and thanks to each one 
of the witnesses. And I want to make it clear for the record 
that each one of you disagrees with the President's strategy in 
Iraq for different reasons, to be sure. I am still searching 
for a strategy that is as good as our troops.
    The practical question that we have to face as a committee 
is what can we do to change the President's policy. He is the 
commander in chief. Former Secretary Perry said that his 
proposal was too little, too late, and of course prefers the 
Iraq Study Group's proposal. Dr. Kagan was saying that we need 
to put in more troops, and we need to have a different 
objective for those troops to secure the population. But as a 
practical matter, what can Congress do to change things? We can 
cut off money. We can condition money, but there is still just 
one commander in chief, and it seems to me that it is almost 
more difficult to have a more hawkish strategy than the 
President, as Dr. Kagan is suggesting, than it is to have a 
more devilish strategy. It is just the way the appropriations 
process works.
    So I was wondering if Dr. Kagan had any practical 
suggestions as to what we could do to implement his sort of 
policy if the commander in chief has chosen not to implement 
it.
    Dr. Kagan. Well, I would say it remains to be seen what 
strategy exactly will be implemented in Iraq. And there is a 
name that has not been mentioned with sufficient prominence 
here but that needs to be, and that is Lieutenant General David 
Petraeus. We have spoken about General Casey and how he feels 
about things and General Abizaid and how he feels about things, 
but the commander who is going to implement this plan is 
General David Petraeus when he becomes the commander of the 
multinational forces in Iraq. I eagerly await what he has to 
say. He is a tremendously qualified officer, and I believe that 
at this moment the hopes of our Nation rest on his shoulders.
    The President has committed to sending five brigades to 
Baghdad, which is what our group recommended, and he has said 
that he will change the strategy to focus on securing the 
population. Now, the Administration officials have subsequently 
briefed a variety of details of the plan. Honestly, it is a 
little hard to imagine why they have gone into quite so much 
detail in these circumstances before the new commander has 
taken power, but I believe that General Petraeus will use the 
resources that the President has committed to giving him, 
wisely, to pursue the new strategy that the President has given 
him. And I think that we should wait until we have heard 
General Petraeus' recommendation for going forward, and then I 
would recommend that the committee, Congress in general, and 
the Nation rally around this new commander who is, by far, our 
best hope in this dangerous situation.
    Mr. Cooper. I too admire General Petraeus, but don't we 
have civilian control of the military in this country, and are 
not you urging General Petraeus to countermand the President's 
policy?
    Dr. Kagan. No. The President gave one speech in which he 
said that he was going to commit to sending five brigades to 
Baghdad and that he was going to have a change in strategy. 
Various Administration officials have subsequently briefed a 
variety of details to that plan, some of which bring concern to 
me. It very clear that those are the sorts of details that the 
commander on the spot would be the one who is in the best 
position to make recommendations. And I am not suggesting that 
General Petraeus will do anything the President is 
uncomfortable with, but I do believe that we should wait until 
General Petraeus has made his recommendations to the President 
about how he would like to proceed before we evaluate the 
strategy.
    Mr. Cooper. If each of the gentlemen would help me 
understand which would be a greater blow to American prestige 
this spring--continuing problems in Iraq or surprise Taliban 
successes in a spring offensive in Afghanistan, due primarily 
to weak NATO forces and a lack of U.S. troops.
    Dr. Korb. I think Afghanistan is much more important to the 
security of the United States than Iraq is. After all, that is 
where the attacks of 9/11 occurred. That is the central front 
in the war on terror. We cannot let that fail. We cannot let 
that fail.
    So, if you ask me if I had to say which would be a greater 
threat, it would be a renewed effort by the Taliban that has 
great gains. Iraq is primarily a civil war now. I do not see 
Iraq, as I mentioned before, as mainly a haven for al Qaeda, 
and everything I know about Iraq tells me that once we are out 
of there, the Iraqis are not going to be supporting al Qaeda.
    Mr. Cooper. Dr. Kagan, any thoughts for what we should do 
in Afghanistan?
    Dr. Kagan. Well, the situation in Afghanistan is very 
grave, and I am very concerned about it. But I think that for 
all of its significance in the war on terror, its significance 
to America's national security pales in comparison to the 
consequences for our Nation of the possibility of real defeat 
in Iraq and the collapse of the Middle East entirely. 
Afghanistan does not pose that sort of existential threat to 
our security at this point, but I do believe that disaster in 
Iraq does.
    Mr. Cooper. I thought you said in your testimony that you 
predict the President's plan would fail, at least as it is 
currently outlined, unless General Petraeus changes it.
    Dr. Kagan. I have serious concerns about elements of the 
plan that have been briefed by members of the Administration. I 
do not take those to be canonical statements of what will 
happen when the new commander has made his recommendations to 
the President.
    The Chairman. I thank the gentleman.
    Mr. Jones of North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    I sit here as a Member of Congress for three and a half 
years, now going on four years, and I am amazed where we are. 
And I want to just read--and then I have got a couple of 
questions, and I would like for--I am not going to give the 
name of the person I am quoting at this time, but all three 
gentlemen, I have great respect for you, and thank you for 
sharing your knowledge and expertise with this committee and 
with the American people. This is the quote.
    ``You will never find in my lifetime one man that all of 
the Iraqis will coalesce around. Iraqis are too divided among 
sectarian, ethnic and tribal loyalties, and their loyalties are 
regional, not national.''
    Does that sum it up pretty well, in your opinion, of the 
situation with the chaos in Iraq?
    Dr. Kagan. Congressman, I do not think it does. I think 
that the situation is more complex than that, and I think that 
a lot of people have been trying to portray Iraq as a country 
that exists in three divided areas that hold the loyalties of 
their populations. Something like 10 million Iraqis, I believe 
is the figure, live in mixed cities. Many of them, especially 
before the sectarian violence occurred, had been living in 
mixed neighborhoods, living door-to-door with Shia, Sunni, 
Turkmen, Arab, and so on.
    Mr. Jones. Dr. Kagan, let me just real quick--because the 
time will go fast and I do have a lot of respect for you. I 
might disagree but have a lot of respect. I think it was in the 
1920's that the English said, you know, ``We have done all we 
can do.'' This was Army General Jay Garner who made that 
statement, and I think he does bring some credibility because 
he was the first U.S. official in charge of postwar Baghdad. 
Now, whether you agree or not, I mean--but the point is that, 
as Dr. Perry has said and as Dr. Korb has said, if we do not 
understand that this is not going to be won as a political--it 
is going to be won politically speaking, rather than with war. 
And I sit here in amazement of how, after four years, we are 
still falling over ourselves, not the military--God bless 
them--and I hope the new leadership in Iraq maybe will bring us 
some direction so that we can transition to the Iraqis. But I 
listen to Dr. Korb, and he is saying that, you know, it is hard 
to motivate these people. Well, I think that is exactly what 
General Garner was saying.
    I think that the Iraq Study Group and Dr. Perry--I think 
you all came forward with some very fine recommendations. I 
think, Dr. Korb, you have as well in your group, and I just 
hope--and then I want to ask the question and I will stop. I 
just hope that this Administration, which has said so long that 
I am going to listen to the military in the field and, yet this 
surge of 22,000 troops--I do not know what we are doing to 
these young men and women but making them referees in a civil 
war. The only thing different about being a referee in this war 
versus a referee on a football field is they get shot and 
killed and wounded. I guess my--I will go to you, Dr. Korb.
    Can you give--I mean, you definitely believe that we cannot 
motivate because of the differences in the tribes and that what 
we have to do is to seriously consider some type of 
redeployment with support?
    Dr. Korb. Well, I agree this is something we should have 
thought of before we went in there. And what happened is the 
way we went in, we unleashed these feelings, these ideas that 
had been there all along, ever since the British were in there, 
and now we are having to live with that, and that is why I 
think two things.
    One, we have got to put them on notice they have got to 
move to deal with these things. If they do not, it is going to 
be their problem, not just ours anymore. And as Dr. Perry said, 
at some point you have to leave, and if they have not done 
this, the violence will break out again because they are 
dealing with disputes that go back over 1,000 years, and we 
need to realize that.
    When I was in Iraq, I was talking to somebody in Hilla, and 
it was at the university, and he said something to me. He said, 
You are saying the same things that the British said when you 
came here. You know, ``we came as liberators, not occupiers.'' 
It was very interesting. I went back and looked it up, and he 
was correct.
    Mr. Jones. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I appreciate each of your individual views concerning the 
way forward where Iraq is concerned, but at this point, I am 
certainly more interested in what the President has proposed 
and what each of you think of that proposal.
    Dr. Kagan, just a minute ago in response to Mr. Cooper's 
questions, you indicated that as different Administration 
officials had fleshed out what the President had to say in his 
speech, you were concerned about some of those details.
    Would you be specific about the details you are concerned 
about and what your concerns are?
    Dr. Kagan. Yes, Congressman.
    Listening to the testimony last week, the Administration 
has been briefing that the Iraqis will be in the lead of this 
operation, and it has briefed a great deal of detail about the 
tactical arrangements for that, including who will be actually 
knocking on doors and what the role of the American forces will 
be, how American forces will be deployed throughout Baghdad. 
And in addition, there has been some briefing about the force 
flow into Iraq with suggestions made that the initial increase 
would only be two brigades in Baghdad with three other brigades 
on standby. I am very concerned about all of these things.
    I think that this is an operation where we cannot rely 
necessarily on the Iraqi security forces, as they are, to do an 
adequate job here, that there are going to be some places----
    Mr. Marshall. I am going to have to go ahead and interrupt 
here. So do you think--I mean I also know you do not think 
20,000 is a sufficient number. Your initial recommendation was 
30,000, something like that?
    Dr. Kagan. Well, again, the numbers are very complicated 
because the Administration has been briefing brigades at a 
certain level, and I think that, in fact, what they are saying 
is there will actually be more forces going into Iraq, more 
than 20,000.
    Mr. Marshall. So your expectation is that a larger American 
force, not dependent upon Iraqis taking the lead and doing some 
of the things that you are a little concerned they may not do 
or may not do very effectively, that a larger American force 
could accomplish dampening the sectarian violence and calming 
Baghdad.
    Dr. Kagan. Congressman, I believe that it is the force that 
we recommended in our report, which was five American combat 
brigades, in addition to those already in Baghdad, partnered 
with such Iraqi forces as are available.
    Mr. Marshall. How would you use the Iraqi forces?
    Dr. Kagan. Well, you would partner with them, and that 
would mean that you would use them to plan operations together. 
They would conduct operations together, but they would not 
necessarily always be in the lead. There would be some 
circumstances where American forces might be in the lead in the 
planning.
    Mr. Marshall. And the reason why the American forces would 
take the lead is because the planning is too difficult for them 
to figure out; or do you really have in mind that there is a 
tough target that is well-defined, that a truly talented, 
capable, conventional force needs to hit?
    Dr. Kagan. There will be circumstances in both natures. But 
also I am concerned about the number of Iraqi forces showing 
up, and we wanted to design a plan that would be able to 
succeed even if the Iraqis did not show up in the numbers that 
we hoped that they would.
    Mr. Marshall. You contend that we are heading in the wrong 
direction by focusing upon trying to get Iraqis in the lead, 
training Iraqis, trying to push them out front, embedding with 
them, that sort of thing, and that, in fact, what we should do 
is change the nature of this and say, ``Look, we the United 
States, the coalition forces, are going to provide security for 
that country,'' and at the time you said that, you said there 
are examples in history where that has been done by an army 
constrained by our rules, with an indigenous population where 
we largely do not speak the language and cannot even drink the 
water.
    Could you give me the examples where that has been 
accomplished?
    Dr. Kagan. Certainly, Congressman. We did that in Tall Afar 
in September 2005 with a great deal of success.
    Mr. Marshall. So Tall Afar is what you are relying upon?
    Dr. Kagan. Yes. We have also been undertaking similar 
operations in Ramadi. We undertook similar operations in 
Baghdad itself, and Sadr City in 2004.
    Mr. Marshall. Now, Ramadi, I was just there over Christmas. 
The brigade that is principally responsible now for tackling 
Ramadi has lost 75. As of Christmas, it had lost 75 soldiers. 
It had over 500 wounded. And yet the brigade was quite 
optimistic about the future, not because they felt they were 
capable of taking care of this situation but because the local 
sheiks had suddenly decided within the last couple of months to 
team up with the Americans. And the brigade commander said 
this: If you turned on the cellphone communication in Ramadi 
and gave me 100 Silverado pickup trucks and 1,000 weapons that 
I can turn over to this newly established police force--because 
that is how they are funneling these folks through--these guys 
will take care of al Qaeda in this area to provide security.
    Dr. Kagan. Congressman, when I was talking about al Qaeda, 
I was talking about bringing a greater degree, granted a far 
from perfect degree, but a greater degree of security to 
Ramadi. And the units that are there have been accomplishing 
that largely by moving in among the local population, partnered 
with Iraqi units, and conducting joint patrols. That has been a 
lot of the methodology there, and it has shown some success.
    Mr. Marshall. I went out on patrol myself in Ramadi three 
years ago, and I have been following Ramadi. I have been there 
ten times now and focusing on Al Anbar and Ramadi, and the 
first optimistic news I have heard about Ramadi came from that 
brigade commander talking about Iraqis doing this, not American 
forces.
    Is my time--I am sorry. My time is up.
    The Chairman. Mrs. Davis from Virginia.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony today.
    Dr. Perry, I noticed in your prepared testimony and in what 
you said, that you noted your criticism of the President's plan 
for Iraq and you called his approach more tactical than 
strategic, and that you questioned the ability of this new plan 
to hold the Iraqi government accountable. And I think you also 
warned that it would only deepen the divide within the country, 
if I am correct.
    Is there one recommendation that either you personally or 
the Iraq Study Group would make; and, if so, what would it be? 
In other words, what is the greatest omission that you see from 
the President's plan? And then let me ask one other quick 
question so I do not run out of time.
    Secretary Gates was in the other day, testifying, and he 
has proposed an additional 92,000 troop increase. So let us 
assume you were Secretary of Defense again. Would you support 
that 92,000 increase in troop strength?
    Dr. Perry. If I were, would I what?
    Mrs. Davis of Virginia. The 92,000 increase in troop 
strength; not in Iraq, but an increase in troops, period.
    Dr. Perry. The answer to your second question is yes.
    As to the first question, I think the President's proposal 
was not likely to succeed because it puts an emphasis on 
American troops coming in for security rather than for 
strengthening the Iraqi army, which is our only long-term way, 
our strategic way of accomplishing the mission, and because it 
does not put pressure on the Iraqi government to make a 
political reconciliation that is absolutely necessary for 
stabilization in that country.
    Mrs. Davis of Virginia. Let me ask you quickly--and I hate 
to interrupt--but how would you propose that we put that sort 
of pressure on the Iraqi government for political as well as 
for strengthening----
    Dr. Perry. The only way I know of doing that is by telling 
them this is going to be their problem sooner rather than 
later. We are going to start to move our combat patrols out of 
there. Again, I am not suggesting pulling American forces out 
of Iraq. I think we have a great stake in Iraq. I am saying we 
should stop the combat patrols in Iraq, turn that over to the 
Iraqi army, use our forces to support the Iraqi army and to 
help train them better.
    Mrs. Davis of Virginia. Dr. Kagan, you or Dr. Korb, do you 
have any comments on that as well?
    Dr. Kagan. Well, I think it is very important to understand 
what the problem is here, and I think we are trying--we are 
moving dangerously in the direction of saying this is a civil 
war and therefore it is not our problem, and we do not have to 
deal with civil wars. And I would like to make a couple of 
points about that if I may.
    The first is that we have, in fact, successfully refereed 
civil wars in the recent past in Bosnia and Kosovo, and the 
consequence of that refereeing was to keep a region, which 
looked for a moment as though it was going to explode, 
completely stable to the point where you can now go to 
luxurious resort hotels on the Croatian coast, which did not 
look like something that was going to be very likely in 1995. 
That is a tremendously important thing.
    In other places such as Rwanda, Somalia, and Afghanistan 
where we said, well, we do not do civil wars and we are not 
going to intervene, the consequences were wider regional 
problems, terrorist spin-offs and a continuing cycle of 
violence throughout the area.
    This is a civil war. We do have to be concerned about that. 
But I do not think that we can simply decide that because it is 
a civil war, therefore our concerns should end; therefore, that 
is not something that we should be responsible for. On the 
contrary, because it is a civil war, it becomes that much more 
dangerous and that much more urgent that we respond to it 
effectively.
    Dr. Korb. I support the increase in the number of troops. I 
think that is long overdue, something we should have done right 
after September 11th, because we have overextended the forces 
now in Iraq and Afghanistan. In fact, for the President to 
implement his surge, he is extending the tours of people and 
sending units over that have not really been home in as much as 
a year.
    I agree with Dr. Perry that basically we have got to give 
them an incentive to make these political compromises. Yes, it 
is true that we went to Bosnia, but before we went there we had 
the Dayton Peace Conference, in fact, where we got the parties 
together to come up with a framework. And in my prepared 
testimony, I recommended that part of what we should do is get 
these people together in a Dayton-style conference to begin to 
iron out their difficulties, because that is the first step.
    The difference between a civil war--the key about a civil 
war as opposed to al Qaeda is when we say this is the central 
front in the war on terror, that is al Qaeda; it is not a civil 
war. And that is where I think you have to be very careful 
about what you are talking about.
    The congressional resolution authorized us to go in and get 
rid of Saddam Hussein and see if there are weapons of mass 
destruction. It had nothing to do with settling the 1,000-year 
conflict between the Sunnis and Shias.
    The Chairman. Mr. Udall, please.
    Mr. Udall. Thank you, Mr. Chairman.
    Mr. Chairman, I want to commend you for holding what I 
think is the first discussion--if not, it is certainly one of 
the first discussions--that considers all of the alternatives 
that are in front of us in this region of the world. And I 
think all of us who sit up here on the dais do so today in the 
interest of, frankly, not having a conversation about losing or 
failing or winning, but how do we regain our strength and our 
status and apply our leverage not only in this part of the 
world but in other parts of the world. And I want to thank 
everybody involved today. I think we have set aside most of the 
sound bites, and we are attempting to have a very substantive 
discussion.
    I think Congressman Cooper pointed out we have three very 
viable alternatives worth discussing here today, and I have 
associated myself more with the Iraq Study Group's 
recommendations than Dr. Korb's. But in the interest, Dr. 
Kagan, of giving you full hearing today, there is a school of 
thought--and picking up on Dr. Snyder's earlier devil's 
advocate point of view--that what President Bush has proposed 
could succeed militarily, but it actually puts us further 
behind the eight ball politically because it would embolden the 
Shiite majority. Because we, I think advertently and 
inadvertently, cannot help but pressure the Sunnis increasingly 
in the plan that is in front of us and that therefore provides 
the Shia with less reason to amend the constitution to bring 
the Sunnis into the government, and we actually, in fact, could 
push the country closer to civil war and, in the process, push 
the Sunni into the arms of al Qaeda.
    Would you care to comment, Dr. Kagan?
    Dr. Kagan. Well, yes. I do not think that that is true. I 
think we have already seen--we have been pressing consistently 
on the Sunni insurgency. I think we have not been doing it 
effectively enough. I think it is very important to point out 
that the purpose of the operation that we propose in our report 
is not to press on the Sunni community but to bring security to 
Sunni and mixed Sunni-Shia neighborhoods in Baghdad. This is 
not a program of going after the Sunnis. This is a program of 
ending the violence in the neighborhoods that are suffering 
most from it right now, and I think that that is a very 
different thing.
    And I also think that the reconstruction element of the 
plan, which we try to highlight in our report, is extremely 
important because it would have us bring significant 
reconstruction efforts into Sunni neighborhoods to emphasize 
that this is not, in fact, an assault on the Sunni population, 
but an effort to bring them security and to improve their 
quality of life.
    So, no; on the contrary, I think it will help in the 
process of bringing the Sunni back into the process, and I 
think we have seen that already in Al Anbar where we have been 
consistently pressing on the Sunni insurgency, and we are 
seeing the movement of some Sunni sheiks to attempt to 
renegotiate and to reengage.
    Mr. Udall. I think it strikes many of us here on the 
committee that it is a little too late and too little when we 
hear about reconstruction efforts and job creation because, for 
the last three years we have heard that those efforts were 
underway and yet they have borne no fruit. That is an editorial 
comment from me, obviously.
    If I might, I would like to direct a question to the entire 
panel.
    Experts suggest that we do not have one war, one conflict 
in Iraq; we maybe have as many as five. And although we hear 
about the counterinsurgency doctrine being better understood 
and applied--and incidentally, I think we have to do more of 
that in a broad-based way. And if I were to hold this 
Administration responsible in that regard, it would be that I 
do not think the American people fully understand the nature of 
the global counterinsurgency that we have to muster, which I 
think is a better way to characterize what we face instead of 
the Global War on Terror, but that is another conversation.
    The counterinsurgency doctrine, Dr. Kagan, that you suggest 
will work in a counterinsurgency setting; but we have a civil 
war, and I am not convinced that a counterinsurgency doctrine 
works in the context of a civil war. And I would be interested 
if the panel would respond, all three of you.
    Dr. Kagan. Well, it seems to me that the first premise of 
the counterinsurgency that I am focusing on is the question of 
establishing security for the population. I think that applies 
to counterinsurgency. I think that applies to peacekeeping 
operations. I think that applies to ending civil wars. It is 
the approach that we used in Bosnia. You cannot use a Dayton 
approach here because you do not have a Sunni leadership that 
is sufficiently coalesced that you can negotiate an accord with 
it in the same way. That is something that we have to make 
possible.
    But what is very clear to me, not only from a 
counterinsurgency but also from a variety of civil war lessons 
in the past 15 years, is that as long as violence persists at a 
very high level, there simply is little to no prospect of 
serious political accommodation that can be long-lasting. This 
is the basis of my disagreement with Dr. Korb and possibly with 
Dr. Perry.
    The question is, what order do you have to do things in? 
And my considered opinion, based on the examples that I have 
looked at, is you first have to establish a basic level of 
security. They think you first have to use a political process. 
That is the basis of our disagreement.
    Mr. Udall. Dr. Korb, would you comment, please?
    Dr. Korb. I think you are quite right. There is not just 
one conflict going on, but we focused--the President focused in 
his remarks on al Qaeda. You have got violence between 
different Shia groups. You have got Arabs versus Kurds. There 
is no unity among all of the Sunni groups, so you have got 
several conflicts going on there at once, and I think it is 
important to keep that in mind.
    The next is our goal is not to, quote/unquote, win the war 
in Iraq, whatever that means. Our goal is to prevail in the 
struggle against the violent extremists. And I think at the end 
of the day, you have to sit down and say, ``Our trying to solve 
the problems between the Sunnis and the Shias, is that helping 
us prevail against these people or is it creating more 
enemies?''
    The British Ambassador to Italy, shortly after we invaded 
Iraq, said that that was the best recruiting tool that al Qaeda 
has, was our going in there. And there is no doubt about people 
getting training there and applying it in Afghanistan, if you 
look at the number of similar tactics that are being used 
there.
    So I think you have to take a look at it in that sense, and 
that is why I recommend setting a date certain, keeping your 
troops in the region to prevent anything that would harm our 
interests. And while a civil war between the groups would 
certainly not be something we would like, there are civil wars 
going on all over the world, and I think what we have to keep 
in mind is that that is something the international community 
should be concerned about, something we should try and do 
something about, whether it is Darfur, for example, or if it 
should break out when we leave Iraq. But our interest is to 
make sure it does not become another haven for al Qaeda, and it 
is also in the interest of the countries in the region that it 
does not become a failed state, because if nothing else, there 
will be millions of refugees that they will have to deal with. 
And I do think you can work those with all of the countries, 
and as the Iraq Study Group mentioned, you have got to get Iran 
involved. They were helpful to us in Afghanistan, and they have 
been helpful in the initial phases in our invasion of Iraq.
    The Chairman. Let me remind the members of the committee 
that because we did not reach the members in the front row when 
Secretary Gates testified before, we will begin with the front 
row when Secretary Gates does return in several days, just in 
case you lose heart today.
    The gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. A couple of quick 
questions and maybe a thought or two.
    First of all, Dr. Kagan, you said that right off the bat we 
had made a big mistake, and that was that we did not create 
stability, social stability, to start building on. At the time 
I was over there, I thought that was the main objective of our 
troops was to try to create stability and a working environment 
where we could get civic works and things done. How do I 
misunderstand what you are saying, first of all?
    Dr. Kagan. Congressman, to my knowledge or to the knowledge 
of the various military officials that I have spoken and 
consulted with, it has never been the primary objective of the 
American military forces in Iraq to establish or maintain civil 
order in that country. It has always been our purpose to train 
an Iraqi force to do that and to put that Iraqi force in the 
lead in accomplishing that mission. And we have been extremely 
reluctant to undertake that mission overall in Iraq for all of 
the reasons that General Casey has given, which I believe are 
worthy of consideration, but which I think are not sufficient 
to overcome the urgent need to provide security for the Iraqi 
population.
    Mr. Akin. It is just a different way of looking at it. It 
seems to me that we were trying to provide the social order 
until we had the people trained. At least that was my 
understanding.
    Now, second of all, if I were one of the terrorists over 
there, al Qaeda, the first thing I would consider doing would 
be to start a civil war. What a simple thing. You just go in 
and make it look like somebody did it. You get everybody 
stirred up, and it makes it ten times harder for the Americans. 
Can't we assume that that is something--that they are going to 
create civil war and take advantage of that situation? Is that 
not something we should assume they are going to do?
    Anybody who wants to answer that.
    Dr. Kagan. Well, Congressman, that is exactly what 
happened. Zarqawi told us, he told the world, that his 
objective was to create civil war in Iraq. He was going to do 
that by establishing the Shia. He believed that it would 
benefit the Sunni population, his part of the Sunni population, 
for a civil war to occur because he thought he could use it as 
a tool to mobilize the Sunni population.
    Mr. Akin. Okay. So let us agree that is what has been 
happening. Now, the anecdotal stories that I hear from my son, 
who is at Camp Lejeune and who is now on his way over to Iraq 
with the Marines--in the stories of our training the Iraqi 
troops, it seems like to me, is that we are starting in that 
training process with all of the rules against us.
    First of all, their enlistments are so short. They go home 
every weekend. The first thing they described was we gave them 
cold weather clothing. They take them home and sell them on the 
black market, and then they come back and complain they are 
cold at night. They will work fine as long as they are in a 
place where nobody is shooting anything, but if we send them to 
where there is some action, then three-quarters of them do not 
show up for work. And then some of their social habits are 
indescribable in public, but there are some technologies, very 
basic technologies used in bathrooms, that they do not seem to 
understand, and they will not clean up after themselves, and 
just the overall sense of people in a military unit.
    It just seems like we do not have the discipline to train 
people who can really do a tough mission. Does anybody want to 
comment on that?
    Dr. Korb. Well, as somebody said, they have the real all-
volunteer military. You can volunteer in, and you can volunteer 
out anytime that you want----
    Mr. Akin. Anytime you want.
    Dr. Korb [continuing]. And I think that that is the point I 
was trying to make. It is motivation for those people, and they 
are not motivated because there is not an Iraqi nation, that 
Congressman Jones was referring to before, that they all feel 
devoted to and want to sacrifice their lives for.
    Dr. Kagan. Congressman, I would like to take issue with the 
portrayal of these Iraqi security forces and people who simply 
do not show up when people are shooting at them.
    I have heard the briefings, heard the reports from the 
commander of the operation in Tall Afar, read Bing West's 
magnificent book about his own experiences in Fallujah. And it 
is absolutely not the case that Iraqis are unwilling to risk 
their lives, and they are perfectly capable of fighting 
ferociously against great odds in a number of circumstances. 
And I think that Dr. Korb has this thing turned on its head.
    They do go home every month, and they come back every 
month. The enormous majority of them come back every month. 
They are continuing to re-up on a continual basis, even as the 
security situation is deteriorating, even as their families are 
threatened because they are part of the Iraqi security forces, 
even if they are asked to do more and more dangerous things.
    Mr. Akin. I guess the point that I was hearing was--and 
there may be--I do not deny that there are probably some people 
who are like that.
    My question is do we have the rules set up for when 
somebody volunteers, that we can hold their feet to the fire; 
that if you are really going to be in this thing, now you are 
going to have to do these various things? And my sense was, at 
least in the case of many of them, we did not have that rule 
set up ahead of time that this is an army, and it is going to 
be run like an army.
    Dr. Korb. The majority of units are no more than 50-percent 
manning at any one time, and that is why when they tried to get 
six battalions to go into Baghdad, only two came.
    Mr. Akin. Thank you.
    The Chairman. Mr. Courtney, please.
    Mr. Courtney. Mr. Chairman, I pass right now.
    The Chairman. Mr. Courtney passes.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks to the three of you for coming and testifying today. 
I appreciate your testimony and the different points of view 
expressed today as well.
    But I do want to state--I was unable to do so at the last 
meeting, I had to leave early--the people of Iowa I have had 
the honor and the privilege and the responsibility to represent 
in the short time that I have been here in Congress and on this 
committee, have truly grave reservations about what is 
happening in Iraq, as I think the majority of the American 
people do at this time. Many of us have been opposed to what we 
consider, quite frankly, a misadventure from the start, and we 
grow wearier of the Administration's lack of a coherent plan as 
each day passes.
    And I just want to state for the record that Iowa has 
carried a very heavy burden in this war. We have one of the 
highest per capita rates, death rates, of any state. And we had 
a young soldier from Ottumwa killed just in the past couple of 
weeks, as well, in my district. The policies have placed 
tremendous strains, then, on families and friends in Iowa, as 
has been the case across the country. And with that in mind, 
many of us have stated that we are not in favor of a continued 
presence here in Iraq on the part of the United States. And I 
will go one step further than Dr. Korb has, and I would make 
the argument that we should be gone within the next year. With 
all of that in mind, I do have a couple of questions, a couple 
of points, I guess, for Dr. Kagan.
    You mentioned that you do not want to see a failed state. I 
do not think anybody wants to see a failed state in Iraq. 
Clearly, stakes are high, there is no doubt about it. But if 
you could, sort of lay out what a ``failed state'' is for you, 
because we have talked a little bit about what it might mean--
refugees falling across borders, what have you. Is this simply 
a power vacuum or is it something more than that?
    And also I guess I wanted to just make a comment about your 
mention of Bosnia, and you can correct me if I am wrong. We 
will have to maybe have a dispute about Bosnia as a relevant 
comparison to Iraq, because I believe that the Dayton Accords 
took place with respect to Bosnia at a time when there really 
was already pretty much an equilibrium reached among the three 
parties in that civil war, because that did not happen until 
1995. That war had been going on for quite some time, and there 
had been Croats killing Bosnians and Bosnians killing Serbs and 
Serbs killing both, and what have you. And as far as the 
territory was concerned and who was controlling what, it was 
pretty much stabilized, if I remember correctly, by the time 
the Dayton Accords were actually agreed to. Maybe I am 
overstating the case a little bit.
    So I do not think the comparison between Bosnia and Iraq is 
entirely apt in this case. We may have to disagree about that, 
but talk about what it means to have a failed state in Iraq and 
if it is simply a power vacuum--and it may be more than that--
but your concern about al Qaeda falling into the power vacuum. 
Address, if you would, what Dr. Korb has said, for example, 
about only two to four percent of the problems in Iraq are al 
Qaeda. And if the sheiks, in fact, in Ramadi are cooperating 
with us--they have finally decided that al Qaeda is their 
enemy, and the Shia are not likely to support al Qaeda 
either--what is the concern in that sense?
    Dr. Kagan. Congressman, I have never said that I think the 
major reason--or I have not said in recent months that I think 
the major reason to be concerned about Iraq is because of al 
Qaeda. And I think that Dr. Korb is narrowing our interests in 
the region too tightly to say, if this is not directly a fight 
about the Global War on Terror, then we do not have interests 
here.
    I think it is demonstrably not the case that American 
interests around the world are confined strictly to whether or 
not something is directly related to the Global War on Terror.
    A ``failed state'' for me in Iraq is not simply a power 
vacuum. I think that we have seen the emergence of sectarian 
war mobilization going on at a very primitive level right now. 
I think that if we pull out now, what you will see is the 
collapse of the Iraqi government, the collapse of the Iraqi 
armed forces, the dramatic strengthening of the militias on 
both sides, sectarian cleansing on a vast scale, and efforts at 
genocide, which I really believe will occur, refugee flows 
across borders which will have the effect of destabilizing 
neighboring states.
    Remember that even Saudi Arabia has a significant Shiite 
minority. There are already about 900,000 Iraqi refugees in 
Jordan. All of that will intensify. And what I fear is that you 
will find that the neighboring states will begin to intervene 
militarily in the Iraqi cauldron out of sheer self-defense, in 
addition to self-interest, and I fear that you can readily get 
to a regional conflict which we would not be able to watch with 
equanimity. There certainly are civil wars around the world, 
and some of them we do not intervene in, but I find it very 
hard to imagine how we could say that we can watch, you know, 
with unconcern a civil war in the Middle East.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here this afternoon and for your expertise 
and knowledge.
    After listening to your testimony, it is clear to me that 
each of you has valid points, and it would be difficult to 
concur with any position that would say that if someone did not 
agree with everything you said, they would be totally wrong. We 
are kind of like the President; we have to extract the most 
valid points from each of you to help formulate a plan. Now, I 
am going to try to be precise in the four and a half minutes or 
so I have left, and I hope that you can in your answers.
    Dr. Perry, I want to ask you, did you concur with the Iraq 
Study Group report's conclusion that said that a premature 
withdrawal of troops would lead to, one, greater human 
suffering, two, regional destabilization, three, the threat to 
global economy, and four, it could eventually lead to the U.S. 
having to return to Iraq?
    Dr. Perry. Yes, I concur with that conclusion and all other 
conclusions and recommendations of the report. I signed off on 
the report entirely.
    Mr. Forbes. But that part of it you did agree with, and 
based on your testimony today and what you said the generals 
told you when you were in Iraq about additional troop levels in 
Baghdad to try to stabilize Baghdad, you really do not oppose 
the need for more security forces in Baghdad to stabilize the 
violence. You were just concerned that additional U.S. forces 
could delay Iraqi forces from taking charge. Is that a fair 
statement?
    Dr. Perry. That, and I want the role of the U.S. forces to 
be strengthening the Iraqi forces rather than going out on 
street patrols.
    Mr. Forbes. Good.
    Dr. Korb, as to Iraq itself, geographically Iraq itself, 
there really is not any difference between redeploying and 
withdrawing troops. We are talking about taking troops out of 
Iraq, and it is just the semantics of where you put them after 
you pull them out of Iraq.
    Is that a fair statement?
    Dr. Korb. Well, I am using the same word that President 
Reagan used when I worked with him when we left Lebanon----
    Mr. Forbes. I am just asking you whether----
    Dr. Korb [continuing]. Because you are staying in the 
region, and you are putting--you are not leaving the region.
    Mr. Forbes. But you are taking troops out of Iraq, fair?
    Dr. Korb. Correct.
    Mr. Forbes. And you would concur with the fact that your 
recommendation, whether you call it withdrawing or redeploying 
troops, would be in opposition to what the study group 
recommended, would it not?
    Dr. Korb. That is correct.
    Mr. Forbes. Dr. Kagan, I am going to ask you two questions. 
You indicated that failure in Iraq could have a tremendous 
negative impact, I believe, on the surrounding countries. And I 
am not going to ask you to describe all of them, but could you 
tell me in a nutshell the negative impact you think could occur 
in Saudi Arabia if we fail in Iraq and what, if any, impacts 
that could have on world oil supplies?
    And second--and this is something maybe you could submit to 
us later--could you supply to us at some point in time the 
matrix of how you come up with the number of troops--the total 
troop forces we need in Baghdad, but for today's testimony, the 
Saudi Arabia portion?
    Dr. Kagan. Yes, Congressman, I can, although we described 
that process in detail in our report, and I can certainly 
highlight those sections to you, and I would be happy to 
explain more fully.
    I do believe that what you will see is refugee flows 
pushing toward Saudi Arabia and also a tremendous amount of 
pressure within Saudi Arabia to support the Sunni population in 
Iraq as it comes under increasing attack by mobilized Shia 
groups. I think this can all have the effect of destabilizing 
the Saudi government, which is none too stable to begin with. 
And obviously it goes without saying that destabilization of 
the Saudi government or the collapse of the Saudi government 
would have a dramatic effect on world oil supplies simply 
because of the proportion of those supplies that come from 
Saudi Arabia. I think you can also see a radicalization of 
Saudi Arabia even beyond its current stage if this actually 
does become a full-scale regional Sunni-Shia conflict. There 
is already, as we know, significant pressure in that direction 
within Saudi Arabia, and I think you would find that 
intensified, the broader that conflict becomes.
    Mr. Forbes. If I could address the troop levels for just 
one moment, I know we have heard the numbers 20,000, 25,000, 
30,000. Can you tell me, based on your analysis, the total 
troop levels, whether it is Iraqi, U.S. troops, or even police 
forces, that you believe you would need, based on the 
population currently in Baghdad, to stabilize Baghdad itself, 
total forces?
    Dr. Kagan. To stabilize the entire city?
    Mr. Forbes. The entire city.
    Dr. Kagan. Well, based on historical forums, you would need 
a total of about 120,000 troops to stabilize a population of 6 
million. We proposed a plan that does it in phases which we 
think is appropriate based not only on what forces we can make 
available but even more on the political situation in Baghdad 
and the country.
    Mr. Forbes. After the President's plan, can you tell me the 
total number of forces that you believe would be in Baghdad?
    Dr. Kagan. According to the President's plan, he is going 
to be adding--if they add all five brigades, as the President 
has said they will, that would be approximately 25,000 
additional forces to the 25,000 that are already there, which 
would be 25,000 American combat forces--I am sorry--50,000 
American combat forces immediately in the city, supported by 
Iraqi forces, Iraqi police, several tens of thousands. It is 
very hard to know the precise number.
    Mr. Forbes. General Pace----
    Mr. Andrews [presiding]. The gentleman's time has expired. 
The Chair recognizes the gentleman from Pennsylvania, Mr. 
Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    Doctors, thanks for your time today. I had one quick 
question, hopefully for each.
    First, Dr. Kagan, in your executive summary that you 
provided to us, you said that the political process has failed, 
and then you turned to the military. It is a military that some 
have said have been strained almost to the breaking point, and 
you said that what needs to be accepted is that there be 
increased, longer deployments for the active forces and more 
deployment for the National Guard and reserve. You say that the 
replacement equipment for our troops over there, of which 40 
percent of our equipment in the Army is already there, needs to 
be made up by taking the equipment away from our active forces 
here at home that are not deployed at the moment, as well as 
the guard and reserve forces that are here at home not 
presently deployed. You then say the military industry needs to 
gear up urgently and replace all of that equipment and that we 
need to increase our reconstruction fund at the Office of 
Management and Budget (OMB).
    My understanding is we have got $100 billion sitting over 
in the OMB to come over here in addition to $70 billion already 
paid this year, so that the cost of Iraq will almost double, 
not quite, from $8 billion a month to $14 billion a month.
    General Pace was over here, and there are generals who are 
asking for more troops in Afghanistan, and when asked about are 
we still able to meet what we did a few years ago--have an 
Army, a military, that could deploy nearly simultaneously to 
two major conflicts--the general said we could. It would not be 
pretty. He also expressed concerns about Chad and many, many 
other issues around the world.
    At what point do you step back, as you all talk 
strategically and tactically, and place Iraq in the overarching 
strategic security global environment of which America is 
concerned and say, ``When does it cost too much for Iraq?'' Our 
overall strategic benefit, if China emerges and others--is it 
is about time that we pay attention and invest elsewhere in our 
security interests, more along the lines of where Dr. Korb is.
    Dr. Kagan. Congressman, I think it is a good question, and 
I think it is something that I have considered and what we have 
considered in the process of the report.
    What we are talking about is the prospect, in my view, of 
imminent defeat in Iraq if we do not take dramatic action to 
reverse the situation along the lines of what we are proposing, 
or the possibility that other scenarios will arise elsewhere 
that will require more forces that we may or may not have 
available. So it is not simply a question of an equal play here 
that, you know, things might go bad in Iraq or they might go 
bad elsewhere, and we have to hedge.
    We have in mind for you a very high likelihood that things 
will go very, very badly indeed in Iraq, that will cost our 
national security enormous amounts, both in terms of money and 
in terms of troops in subsequent deployments and subsequent 
threats to our security against contingencies that might arise 
elsewhere. And I would submit that you can go too far.
    You can go just as wrong in making the mistake of not 
committing to the war that you are actually fighting at the 
moment, and losing, in the name of remaining prepared for 
contingencies that might or might not materialize as you can in 
focusing so much on the war that you failed to match those 
contingencies.
    Now, I fully support the recommendation for increasing the 
size of the ground forces. I have been pressing that since 
1997. And I think, honestly, the Administration does not go far 
enough. But I do think that winning this war, or at least not 
losing it at this moment, that there is no greater task that we 
have right now.
    Mr. Sestak. Thank you. I gather it is a matter of judgment. 
I think we have gone beyond that point.
    Dr. Perry, I had the honor of working for you way down in 
the bowels at the Pentagon, in the basement, when you were 
Secretary of Defense. I was one--as the old saying goes, one of 
those 20,000 ants that are in a log in the Department of 
Defense, going down this river, and each of them are thinking 
they are controlling the Pentagon, but at all times we knew it 
was you, and it is a real honor to ask you a question, sir.
    Sir, the pressure you talked about placing on Iraq, the 
incentives to be placed upon them, positive and negative, so 
that eventually they kind of accept that they must do this 
reconciliation program, when is it that you personally would 
say that incentive, that pressure, becomes a date certain? I 
know you did not--the Iraqi survey group is not there, but when 
is it for you to say would that day come?
    Dr. Perry. I have a hard time putting a date on that, but I 
would say if they have not really produced something by 
midyear, I would think we have failed in our pressure.
    Mr. Sestak. Thank you.
    Dr. Korb, if I could ask you----
    Mr. Andrews. The gentleman's time has expired.
    Mr. Sestak. Thank you very much.
    Mr. Andrews. The gentleman from Florida, Mr. Miller.
    Mr. Miller of Florida. Thank you, Mr. Chairman.
    Secretary Perry, thank you for your long service both in 
and out of public service and, reading from your bio, all the 
way back to occupied Japan. And I will say that during your 
various services under Democrat Administrations, especially 
under the Clinton Administration as Secretary of Defense, what 
was your perception during that time with a Republican-
controlled Congress and a Democratic Administration where 
Congress began to meddle, if you will, or put congressional 
prohibitions on the commander in chief's ability to deploy 
forces as he would wish to do so?
    Dr. Perry. I like that question, Mr. Miller.
    I can answer quite honestly that, as the Secretary of 
Defense, I found the pressure from Congress, particularly from 
a Congress controlled by the opposite party, to be very 
difficult. It made my job very, very difficult. But as I look 
thoughtfully at it, I would say our Administration benefited by 
the very tough pushback that we got from Congress on everything 
we did. It made us work doubly hard to be sure that what we 
were doing could stand up under scrutiny.
    I think that Congress' role of oversight and really tough 
oversight is a very important role, and I say that even from 
somebody who has suffered from it when I was in the 
Administration.
    Mr. Miller of Florida. In 1996 you recommended that the 
President veto the defense authorization bill because it 
included several billion dollars of additional spending, and 
also there were contingency plans that were affected by what 
Congress wanted to do at that time.
    Would you recommend a veto if you were in the same position 
today, if Congress recommended doing something that the 
President is entitled to do by the Constitution?
    Dr. Perry. I would have to consider in a very special case 
specifically what the issue was, but I do think that even in 
the case where the Administration is recommending a veto, they 
are influenced by the action of the Congress, even if they 
successfully veto it. They do. The Congress does have a 
profound influence on the Administration's action, and I would 
encourage the Congress to exercise that role.
    Mr. Miller of Florida. But you did not like the Congress' 
exercise.
    Dr. Perry. Of course I did not like it. It was a pain in 
the neck, but it made me a better Secretary.
    Mr. Miller of Florida. Dr. Korb, if I understood you 
correctly, you said something about a certification--let's see 
if I wrote it. It says you believe some type of certification 
is required to ensure that operations in Iraq do not detract 
from the Global War on Terror. I guess my question is how would 
anyone certify what you are proposing, and what exactly does 
the certification mean?
    Dr. Korb. Well, this was in the resolution that Congress 
passed in 2002, and I think what the President would have to 
say is, ``Is our being in Iraq creating more members of al 
Qaeda or is it not? Is it drawing our Army down so much and our 
ground forces down so much that they cannot do the things that 
they need to do? What is it doing to the war of ideas that we 
are waging with people who might be attracted to violent 
extremists like al Qaeda?''
    Those are the things that I think the President should 
certify. And after all of that, I go back and read that that 
was the intent of Congress, because many in Congress were 
concerned that Iraq was not the central front in the war on 
terror, that it was a diversion from dealing with groups that 
caused the problems that led to 9/11.
    Mr. Miller of Florida. Dr. Kagan, with the polls against 
the war in Iraq and the surge in Iraq and the media certainly 
fanning those flames, if you will, do you think the insurgents 
expected President Bush to go counter to what the polls showed 
and actually talk about a surge?
    Dr. Kagan. Congressman, I do not, and I believe--I actually 
disagree also--I am glad you brought this up so I can say that 
I disagree with my colleague's view that the Iraqis think we 
are going to be there forever.
    I think, on the contrary, most Iraqis have looked at us as 
having one foot out the door and ready to go at a moment's 
notice, and I think you have already seen some of the dominant 
games, beginning within the Shia community, about who is going 
to run the post-U.S. Iraq, which they think is coming very 
imminently.
    I do not think that anyone over there expected us to 
reaffirm our commitment or recommit the necessary troops to 
succeed. I believe the insurgents will be surprised and 
dismayed, and I think that it will change the Iraqi political 
situation fundamentally and in a very positive direction.
    Mr. Andrews. Thank you. Gentlemen, your time has expired.
    The gentlewoman from Florida, Ms. Castor, is recognized.
    Ms. Castor. Thank you, Mr. Chairman, and thank you all for 
your expert testimony today.
    At the outset of President Bush's war in Iraq, he 
proclaimed that he would assemble a large coalition force from 
other countries and that he would ask other countries 
throughout the world to carry part of the load. And here we 
are, almost 4 years later, over 3,000 American deaths, and the 
burden remains primarily on young Americans and National Guard 
and reserve troops. American taxpayers have now been asked to 
pay almost $400 billion to support President Bush's effort.
    The Iraq Study Group explained in the report that most 
countries in the region are not playing a constructive role at 
all, and last week, when I listened to President Bush's speech, 
he did not mention any other nation or even that he would ask 
any other country to assist in the escalation of forces or in a 
supporting role, and he continues to resist any diplomatic or 
political effort.
    How do you explain this resistance to political and 
diplomatic efforts, and do you view it as another one of these 
strategic errors that you mentioned early on in your testimony?
    Dr. Perry. I do view it as a strategic error from the 
beginning and an error which has been sustained through the 
years.
    We have a coalition in Iraq, but the United States 
comprises almost 90 percent of those coalition forces, both in 
numbers and in casualties, so it is not an adequate coalition, 
in my mind. At this date, I think it is unrealistic to expect 
we are going to get other nations to provide troops to Iraq. 
The allies who are there now are moving in the other direction. 
They are planning to leave. What we can reasonably expect, 
though, from the regional powers is economic and political 
assistance and assistance in training Iraqi forces. Those 
things we have every right to expect and I think we have the 
leverage to try to get.
    Ms. Castor. Dr. Korb.
    Dr. Korb. The person I think who sums up what you are 
trying to say best is Dr. Francis Fukuyama from Johns Hopkins, 
one of the original supporters of the war. And he said, if you 
had told the American people in early 2003 that the United 
States would go to war in Iraq--over 3,000 dead, 23,000, 24,000 
wounded, spend $400 billion to $500 billion so Iraq could have 
an election--and these are Dr. Fukuyama's words--you would have 
been laughed out of the ball park. Americans supported the war 
for reasons that turned out not to be true. They were also told 
there would be a multilateral effort. That is why they used the 
term ``coalition'' all the time.
    I think what was most interesting is, after President 
Bush's speech announcing that we were going to send more 
troops, our British allies said they are going to continue to 
cut down the number of their troops. And that is why I think, 
as I mentioned in my testimony, it is so important to get the 
countries in the region involved, because it is not just our 
problem to the extent that it is also their problem; and if 
they do not work constructively on it, they are also going to 
have to live with the consequences.
    Ms. Castor. Dr. Kagan.
    Dr. Kagan. Congresswoman, I think that it would be both 
right and desirable for the Administration to make a 
significant effort to engage our regional allies and our 
worldwide allies in assisting us with this project. I think we 
have received some assistance. I think that we have not 
received as much as we might like. I think it is very important 
to keep in mind the British are drawing down--excuse me--
because the British Army is significantly more restrained than 
ours is. There are very few armies in the world, actually, that 
are capable of sending significant forces to Iraq. Let me say 
very few armies, I believe, would actually want to have sent 
forces to Iraq. And so from that perspective, we are suffering 
from the fact that the west has generally disarmed itself and 
has not begun to rearm in the face of a new challenge.
    I do think that it is reasonable to expect that assistance 
from our allies and states around the world and stability in 
the Middle East to help sustain this effort economically, and I 
would like to see the Administration make the renewed effort to 
help to achieve that kind of support.
    Ms. Castor. Dr. Kagan, I have a few other things. How do 
you explain the resistance, though, of the Bush Administration 
and to President Bush even speaking out and mentioning it 
during a speech when we all expected him to announce some 
change of course in Iraq, and included in that change, of 
course, some diplomatic outreach?
    Mr. Andrews. The gentlewoman's time has expired. You may 
briefly answer the question.
    Dr. Kagan. Thank you.
    I have been a consistent critic of the way the Bush 
Administration has fought this war in a variety of ways, and so 
it is not for me, I think, to try to explain why the President 
has made one decision or the other.
    Mr. Andrews. The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, gentlemen, for being here.
    Just in the couple of moments before we dropped the gavel 
and started the hearing, I was thinking to myself and mentioned 
to you what an extraordinary group of intellectuals and 
intelligent Ph.Ds, if nothing else, we have got accumulated 
here. And it is interesting that the three of you, with your 
experience and your education and your attention to this issue, 
you disagree. All three of you have different ideas. And we 535 
Members of Congress, many of us are going to have different 
ideas as well.
    And I think it was the gentleman from Tennessee Mr. Cooper 
who said that we, for better or for worse, that we have one 
commander in chief, and the first person in charge of fighting 
the war, and considering how hard it is to get a consensus, it 
is probably not a bad thing.
    A couple of comments, because I didn't imagine fighting the 
war by a 535-person committee. It is not going to work.
    Dr. Korb, just a comment. I think you said that in quoting 
or observing the comments of a British diplomat and Italian, 
the best recruiting tool that al Qaeda had was our going into 
Iraq. I would submit that probably the best recruiting tool now 
would be American defeat in Iraq. If you are really going to 
recruit large numbers of jihadists, do you think that is 
possibly correct?
    Dr. Korb. No, I don't, because I think what would happen 
when we leave Iraq is al Qaeda will still be there, and they 
can't win either.
    Mr. Kline. You don't think there would be celebrating in 
the streets, gunfire and so forth?
    Dr. Korb. No.
    Mr. Kline. You and I disagree about that as well.
    Dr. Kagan, you talk about the importance of the new 
military commander coming into Iraq, and we have an entire new 
team, don't we, defense team coming in. I think that I was told 
by General Pace that General Casey did ask for more troops, and 
in an earlier discussion with you I know that General Casey was 
involved in this planning, but it is General Petraeus. He is 
the man who is going to have to execute this, and General 
Odierno, because we have a new team over there. If we are going 
to have a new way of doing business, we probably need some new 
leadership. Looks like we are doing that.
    You have been critical of the Administration and--as am I 
in talking about the tactics that we are going to use. It is 
sort of a three up and one back, and, you know, this many on 
this side of the river and that many on this side of the river. 
And I think that is a mistake in trying to be too detailed in 
those tactics.
    Having said that, could you talk a little bit about the 
tactics that are involved in your approach here? I know, for 
example, that you wanted to do this sequentially, perhaps 
putting Sadr City off. Can you talk about that? We only have a 
couple of minutes. Talk to us about that.
    Dr. Kagan. I am very reluctant to have us taking on Sadr 
City as the first order because I think it is impossible to 
keep the two major Shia blocs, which is to say the Jaish al-
Mahdi Army and the Badr Corps, separated as they are now 
separated as rivals for control of a post-U.S. Iraq. I think if 
we actually invaded Sadr City in the Fallujah-type way right 
now, we would clear it out, but we would probably unite them.
    Instead, I would propose to focus on the Sunni-Shia 
neighborhoods and hold them with U.S. forces, partner with 
Iraqi forces if possible and literally sweeping through the 
entire neighborhood going house to house as we have done 
before. The difference would be sustaining the hold more than 
the few weeks that have been customary in past such operations.
    Mr. Kline. Let me interrupt. I wish we had ten minutes for 
each of you with these things, but I know the guy sitting up 
there now, he has got his finger on that red button.
    Just very quickly, if you were to employ the sort of 
approach that you had put forward, you wouldn't have an equal 
distribution of Iraqi and U.S. troops, and by the way, the 
Iraqi troops, in accord with the Iraq Study Group, are now 
going to have embedded U.S. troops down to the company level. 
So you are going to have U.S. troops involved in this even with 
the Iraqi lead, per the Iraq Study Group, but that would change 
that number mix, wouldn't it, of the number of troops, in 
response to, I think, the gentlewoman's question earlier about 
how many troops it would take. Can you do that in about the 10 
seconds that are left?
    Dr. Kagan. Certainly. We would not have equal numbers 
because some districts are more important than others, and some 
are more dangerous. We use metrics sort of coming up with an 
average based on what we thought on a hard district was. But 
you certainly would not have a common mix because you don't 
face a common challenge, and you would identify the critical 
terrain in Baghdad that it is most important to secure first 
and your efforts in having force ratios there. And once you 
have established the clear there, then you would move on to 
other areas.
    The Chairman [presiding]. The gentlelady from Arizona, Ms. 
Giffords.
    Ms. Giffords. Thank you, gentlemen, for being here.
    As a new Member of Congress, I listened very clearly to 
what President Bush had to say last week, and we heard both 
from Secretary Gates and General Pace. This morning Madeleine 
Albright came to testify in our Foreign Affairs Committee, and, 
again, as a new member listening to both sides of the aisle, 
the really good questions that have been asked, it has been 
pretty enlightening, and for me personally this plan the 
President has put forth is not enough, and in the words of the 
chairman himself, it is too little too late.
    I would like the three of you to address what I heard is a 
real absence in force in the terms of ministries that exist in 
Iraq. Madeleine Albright talked about a surge in--not in 
troops, but diplomacy. But if the three of you would address 
whether or not we could or should bring in first other 
countries to help with the rebuilding process in terms of 
banking, health and human services, in terms of the 
environment, in terms of commerce, and whether or not it is 
fair that the Pentagon be shouldering the breadth of this 
rebuilding effort. Other departments here in the United States, 
other countries do step forward not in troop numbers, but in 
other areas to help rebuild.
    Dr. Perry. I think it is a very good point. As I commented 
earlier, I do not think it is reasonable to expect these 
regional powers to provide troops in Iraq at this stage. I do 
think it is quite reasonable to ask them to do the things you 
have described. They can provide economic assistance, they can 
provide training assistance, they can provide political 
assistance, and all of that would be enormously helpful. And I 
think we have the leverage to get them to do these if we use 
our diplomacy properly.
    Dr. Kagan. I would like to say I think it is highly 
desirable to bring in all of the assistance that we can, and I 
think we should make every effort to do that.
    Ms. Giffords. I think the number of questions, though, if 
we can't, shall we throw up our hands, or do we have to try to 
do the best we can with what we have.
    Dr. Kagan. If we can't get other states to step in as 
appropriate--and we must recognize the complexities of that 
because, of course, Iraq's neighbors all have interests. They 
are not, you know, just simple innocent bystanders. So it is 
appropriate to ask some of them to do some things, not other 
things. If we can't get them to step up, in my view, this 
remains a critical, vital national security interest of the 
United States and something that we have to do. And, likewise, 
if the other agencies are not, in fact, able or willing to step 
up, I don't think--we can talk about the unfairness of it, and 
it is indeed unfair and it is something we should try to 
address, but we--I am not prepared to say we should abandon the 
effort, because I think it is too important, the dangers are 
too high of failure to say, well, we gave it the best shot, but 
the other people didn't step up, so we have to walk away. I am 
not suggesting that you are saying anything like that. But I 
think it is important to keep in mind that whatever fairness 
dictates, there is also a reality; and we have to be prepared 
to deal with what are the consequences of various decisions 
including withdrawing or abandoning this project because we are 
frustrated that other people won't help us.
    Dr. Korb. You don't have any good options because ignoring 
General Shinseki's advice, hyping the intelligence and all of 
those things, and so no matter what course you pick, there are 
going to be risks. And I think what you try and do is minimize 
the risk because there are no guarantees.
    I think it would be good to let other agencies get 
involved. The problem is it is late, just like the 
counterinsurgency is too late. You should have done that in the 
beginning; you didn't. Because we are not dealing with an 
insurgency. Now it is more of a civil war, and as we all wish 
General Petraeus a lot of luck in giving him a chance to 
implement the next manual he put out, it is for the next war, 
not for this war. And, again, when it is clear that we are no 
longer going to stay in Iraq beyond whatever that date is, and 
we are not going to have any permanent bases in Iraq, the 
countries in the region, as well as countries in Europe, know 
that it becomes their problem as well as ours. Right now they 
are content to let us stand back and bear the burden because we 
are willing to. I mean, when we said we will stand down when 
Iraqis stand up, that basically put no timetable on it.
    As I read the President's speech, he talked about how 
important it was, and we couldn't fail, but then he said, 
``Well, our patience is not unlimited.'' Well, what happens if 
they don't do it? Is he willing to let us fail in what they 
think is that critical to our interests? There is that 
inconsistency. And that is why I think that unless you set a 
date, and I think, you know, 18 months would be a reasonable 
amount of time, you are not the--the situation is not going to 
get appreciably better.
    The Chairman. Dr. Gingrey.
    Dr. Gingrey. Thank you.
    Dr. Korb, I want to address my question to you. You said in 
your testimony, you said you didn't think there were any good 
options. You said we ignored General Shinseki. You said what 
the President is planning is too little, too late. In fact, you 
said you weren't in favor of the plan, that you didn't think it 
would work.
    In light of those comments and your testimony, I want to 
let you know that yesterday I was at Bethesda to visit a Navy 
corpsman, a native, a petty officer corpsman from my district 
in Palace Springs, Georgia, Dustin Kirby. This corpsman was 
shot by a sniper in the face on Christmas Day with a .30-06 
type rifle, equivalent of a deer rifle. Lost half his tongue 
and all of his jaw. And after the President made his speech 
last week, his parents watched--he was in surgery for 20 hours, 
so he didn't get to see that speech. What he thought about the 
naysayers not wanting to proceed with the plan--and I want to 
read to you his comments and then get you to comment on it.
    And this is what Dustin Kirby said: ``In my opinion, sir, 
we have made great sacrifices. Men and women are wounded for 
the rest of their lives. I would like to think it was for 
something. That is, perspective from those on the ground, I 
feel we have taken one step forward, two steps back, and all of 
our sacrifices appear to be in vain, and that, sir, appears to 
be a tragedy. If you could bring everyone home and actually 
accomplish something, I would be all for it; but if not, let us 
get the job done by changing our rules of engagement. We are 
also restricted and our hands tied behind our backs. The 
argument is that the armed forces fight a war where they can't 
find the bad guys because they don't fight face to face the way 
Marines and soldiers are trained to do. But it is not my place 
to argue with the taxpayers of the United States Government; 
only follow orders given to me and react to the given situation 
that I've been trained to do. But as I said, I worry about my 
Marines, and I am not there to take care of them.''
    And then he went on to say that he felt the President's 
plan would give us at least one last chance at victory.
    Now, what do you say, Doctor, to his wife Lauren, his mom 
Gail, his dad Jack, and his brother and sister when you talk 
about wanting to either withdraw or deploy? You can couch it in 
whatever terms you want to. But what do you say to this family 
when you leave them with that sacrifice on the ground?
    Dr. Korb. Well, I think I say the same thing to those I 
served with in Vietnam. We followed our orders, and we should 
have been commended for our service, and I commend him for his 
sacrifice. I commend him for doing what the country asked of 
him to do. You asked me my opinion about what is the best way 
to go, I can give you my opinion.
    If I thought that the President's plan would lead to 
victory, I would support it. But I know that the President told 
us on October 25th of this year we were winning, no doubt about 
it. Then he said after the election, ``Well, I only didn't mean 
that. I just said that for the election.'' I also know from the 
interviews that the President has given to 60 Minutes and to 
the News Hour basically that he knew last summer that things 
were not going well, and yet he waited this long to come up 
with a different strategy, and I would say, why did you wait so 
long? Was it the political process? What was the reason that 
you waited so long? I hope it was not.
    I would also say to him that I have the greatest respect 
for anybody who puts the uniform of the country on like I did, 
because when I was growing up, I had deferments, and I won't 
mention the political leader who took them when I was----
    Dr. Gingrey. Let me interrupt. With all due respect to this 
Monday-morning quarterback, and I understand that hindsight is 
20/20, but at this point, don't you think, Doctor, that we 
ought to give these troops--that we owe them, we owe their moms 
and dads, those 3,000 dead and many more injured like this 
soldier, this corpsman, this Navy corpsman; don't you think we 
owe it to them to give it one last opportunity at a knock-out 
blow so we can put them on the ropes and get us off the ropes?
    Dr. Korb. As I say, if I thought it would enhance American 
security, lead to less loss of American lives, I would support 
it. I don't. I think it is going to lead to more death, and I 
don't think it is going to bring us any closer to victory.
    Dr. Gingrey. Sure, doctor, and of course you might be 
wrong. You may be right, and at that point in time, maybe this 
entire committee would agree with you. But I think we need to 
give them that one last opportunity.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I was a military spouse, and my husband is a Vietnam-era 
veteran, and I understand that young man's dilemma. However, I 
am not certain that the question should be phrased like that 
because I think it is more important to ask the people of our 
country is it worth it, and that is what we are doing here to 
try to find out. Is it worth it for other people's children to 
continue to die to justify somebody else's damage or death? And 
so I think this is--these are the questions that we need to 
take very seriously today.
    You mention, Dr. Kagan, that this war, if we lost it, would 
be a world-changing event, and I would point out to you that it 
already is a world-changing event, and that Vietnam was a 
changing event also. And the argument that I am hearing now 
that if we don't win, we will see everything fall apart is 
exactly the same argument that I recall during the Vietnam era, 
that everything would fall apart. We would have the domino 
effect, that Southeast Asia would be controlled by the Soviets, 
that China would intervene. So I think we need to be cautious 
about our prediction because every prediction to date has been 
wrong.
    I would like to say I am not certain why we have not been 
able to win the hearts and minds of the Iraqi people. Seventy 
percent of the country wants us out of there. Sixty percent say 
it is okay to kill an American. Now there is internal 
discipline and external controls, and so far all of the United 
States has been able to accomplish are these external controls, 
and I am not sure why we don't have the internal discipline 
there after all of the money that we have spent, after all of 
the efforts our brave soldiers have given.
    And I would also like to take some offense saying that we 
never had a mission to secure Iraq, Dr. Kagan, because I think 
those brave soldiers worked very hard to provide security for 
the Iraqis. It hasn't happened, and this is a question that I 
would like to ask each one of you.
    Is the reason we have been unable to win the hearts and 
minds of the Iraqi people because we are perceived as 
occupiers, that the mission was wrong from the beginning; and 
is there any chance at all that they are going to stop seeing 
us as occupiers and work together?
    And my follow-up question is what and who is the political 
center for Iraq, and when do you expect them to emerge, if they 
emerge, to start taking control of the country from the 
factions?
    So I would like to ask each one of you to answer that, 
please.
    Dr. Perry. Yes, they do see us--it is not the whole 
problem, but it is an important part of the problem. I think 
for us to have a chance for success, we have to be able to, as 
quickly as possible, to turn the security problem over to the 
Iraqis. I do not think they are ready to do that now. I think 
our primary role ought to be strengthening the Iraqi Army so 
they can take over that security function. Only when they do 
that, we can start to get out of there, will the image of 
Americans in Iraqi minds change.
    Dr. Kagan. In the first instance I would say I think Iraq--
how Iraqis see us is secondary to how they see their own 
government. I would agree with you we have not achieved success 
in that measure. I am less interested in the question of how 
much they like us than whether they can come together to form a 
government that is stable. So I think we can get a little 
confused about what the purpose of hearts and minds actually 
is.
    I did not mean to imply any denigration of the efforts of 
our fine soldiers in Iraq. What I have--what I was saying 
simply was they were not given the correct strategy from the 
outset. The strategy that they were given was train and 
transition and stand up and stand down. I would submit to you 
that is a large part of the reason why we face antipathy in 
Iraq.
    One of the obligations of an occupying power, and we were 
one before the sovereign Iraqi government came into being, is 
to provide security for the people. If you are going to have 
forces in another country, there is going to be a certain 
amount of resentment. That can be offset if you provide the 
number one deliverance that those people want, and that is 
security. We have not been doing that because of the strategic 
mistake, the decision not to focus on that, and I think as we 
begin to turn that around and provide the number one 
deliverable that we can provide that justifies our continued 
presence in Iraq, I think you will find attitudes in Iraq 
turning around.
    Ms. Shea-Porter. We have seen our troops go door to door. 
They have gone block to block and worked their way through the 
neighborhoods. If they weren't trying to secure the 
neighborhoods, what were they doing at two and three o'clock in 
the morning? I believe they were trying to secure the 
neighborhoods for Iraq's people, but----
    Dr. Kagan. The problem is they left almost immediately 
thereafter in the belief we could return responsibility for 
maintaining Iraqi security over to Iraqi forces, who were not 
able to accomplish that mission.
    The Chairman. I thank the gentlelady.
    The gentleman from California is now recognized.
    Mr. Hunter. I want to apologize to our guests for having to 
step out for quite a while, but it has been a very instructive 
hearing, and I want to compliment the Chairman for putting this 
together.
    Let me go to where I think there is--some value can be--
some real value added to the mission in terms of the Baghdad 
operation and just get your take on this.
    We are going to have nine sectors in which--in Baghdad in 
which each sector will have an Iraqi brigade which will be 
several maneuverable battalions, in some cases two or three, 
and they will be backed up by the embedded troops, embedded in 
the company level, but also by an American battalion. And the 
American battalion will be there to back up, to help to mentor 
and, as the Iraqis hit their stride that has become 
operationally proficient, to trade out with another Iraqi 
battalion.
    I think that this could be a pattern, a blueprint for 
standing up the Iraqi military in total. And, again, if you 
look at the Iraqi battalions in the way they are dispersed 
across the country, in nine of the provinces you have less than 
one attack a day, relatively peaceful provinces. You had--and 
the number should be a little higher now--but you had, as of 
the last month, some 27 Iraqi battalions in these peaceful 
provinces.
    We have been standing up the country if you--if you look at 
the progress maps essentially in terms of geography. That is, 
this area is now an area in which the Iraqi forces are now in 
the lead, and that implies that you have battlefield competency 
in the Iraqi forces that are in that area. But what it may 
mean, that the Iraqi forces in that particular area simply 
don't have any opposition. They are in an area that is 
relatively quiet, and it doesn't require them to be combat 
proficient.
    And my recommendation is this: is that we use this Baghdad 
plan, three-to-one plan, if you will, or two-to-one plan where 
there is three Iraqi battalions up front doing the operation up 
front and American backup, and as the Iraqi battalions become 
operationally proficient, bringing out the American battalion 
or turning it over to another Iraqi battalion so that you end 
up with an Iraqi-controlled vital space.
    Now, what that would do is develop the stand-up of the 
Iraqi military based not on geographical control, which it is 
based on now, at least apparently from the reports in the 
briefings that we have now received, but it would be a 
capability-based stand-up of the Iraqi military. That is, at 
the end of four or five or six months, every Iraqi battalion 
could be given a combat tour, an operational tour, and I think 
we all agree that nothing stands up the military operationally 
like operations--like actually going out and working the 
operations, working the missions, especially when you are 
hooked up with a unit which has some capability.
    So, for example, as you worked in combat in Baghdad, and 
you have three Iraqi maneuver battalions up front, you might 
want to trade out after several months one of the battalions 
and bring up a battalion from a quiet area from the north or 
the south. Let them operate until they have had their 
operational tour and then rotate them out.
    What that will tell us is whether or not you have battalion 
commanders who will respond when they are called by the 
Ministry of Defense and told to saddle up, number one, whether 
they will come; whether they will move out, saddle up their 
troops, bring them into the area of operation (AO) and operate.
    Number two, it gives you a chance to develop unit cohesion, 
to develop combat effectiveness, to develop an adherence to the 
chain of command, all the things that produce an efficient 
military.
    So that is a recommendation that I have made to the 
Administration. I would like your take on it. Do you think that 
that would be a blueprint for standing up for the Iraqi forces 
so that regardless of the number of car bombs that are going 
off, and regardless of all of the externals that we have talked 
about, we could have at the end of four or five or six months 
an Iraqi military every battalion of which has some modicum of 
combat or operational experience? That is my question.
    Dr. Perry. First of all, I am not sure that we have enough 
troops in Baghdad to accomplish what you are talking about. I 
tend to believe the numbers of troops proposed in Dr. Kagan's 
report to be closer to the number needed.
    But assuming that we do have enough troops, then we will be 
able to establish the security in the region of the problem, 
though that security will go away as soon as the American 
troops leave, unless--and this is the big unless--unless the 
Iraqi battalions are able to sustain that security; and that 
depends on their having much more proficiency and discipline 
and motivation than they have demonstrated in the past. The key 
to that, I think, is the embedding of the American troops down 
to the company level.
    So I am sort of halfway where you are, Mr. Duncan, in that 
I believe that any chance to succeed does revolve around this 
embedding plan.
    Dr. Korb. Our concern is that you mentioned, Mr. Hunter, 
whether they will all show up and whether they will follow 
orders if the orders go against their sect, because I 
understand these units are as--not as multiethnic as we might 
like. What I read in the newspaper, they are talking about 
bringing down Kurdish brigades; for example, how that will play 
if they have to go into a Sunni area.
    Mr. Hunter. Let us presume, Dr. Korb, that they do show up. 
I mean, we all agree if the team doesn't show up for the 
ballgame, you are probably not going to win it. But let us 
presume that they do keep their commitment and they arrive on 
time at the AO, so you have got a green Iraqi battalion, and 
you have got two experienced Iraqi battalions and an American 
backup battalion.
    Dr. Korb. I am also concerned, as I mentioned, about the 
new Iraqi general that is in charge. From what I read, he is 
not the one that the United States would have liked to have put 
in charge of this operation. So I am worried about, you know, 
the orders that, you know, that they might give. And then even 
if they are--if they do show up, will they act fairly and 
responsibly in terms of the things that they are supposed to 
do? Are they--have they been infiltrated by some of the 
insurgents? Those are the--are they going to get the right 
orders from the top? Those are the things I would worry about 
as well.
    Dr. Kagan. I would agree with you absolutely that it is a 
priority in training the Iraqi army that they be brought in to 
conduct operations alongside of our troops rather than simply 
being pushed out to conduct operations on their own with or 
without Americans embedded in them, and I think the partnership 
training, the training the Iraqi forces get through 
partnership, is the best possible training and the fastest way 
to get that army stood up.
    The specifics of the proposal you made I think are a little 
bit complicated. Some of the regions that are peaceful may be 
peaceful because there are Iraqi army forces there, and we want 
to be careful not to denude those forces where they are 
necessary. So that should be something that is done on a case-
by-case basis.
    I am also not convinced that the force ratios would work 
across the city. I want to make sure we maintain adequate 
American forces in those neighborhoods, that we would be 
rotating Iraqi units through so we could ensure that stability 
and security was maintained even if there was some sort of 
slips, even if some of the Iraqi units didn't show up, even if 
they didn't perform adequately, because I think the core 
responsibility in the first instance is maintaining security, 
and that will give us the opportunity to conduct all of the 
sort of training of the varieties you are discussing.
    So I think that is the sine qua non, and as long as you can 
ensure that, then we can talk about the varieties that you are 
discussing.
    Mr. Hunter. Thank you.
    The Chairman. Thank you very much, Mr. Hunter.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Kagan, you were a supporter of this war effort from its 
inception; were you not?
    Dr. Kagan. I supported the invasion of Iraq, yes, I did.
    Mr. Johnson. And we were told that there was a danger of 
weapons of mass destruction, and that is why we needed to go 
into Iraq; isn't that correct?
    Dr. Kagan. Among other things, yes, although I supported it 
for more complicated reasons than that.
    Mr. Johnson. But the point is there were no weapons of mass 
destruction; isn't that correct?
    Dr. Kagan. Apparently not.
    Mr. Johnson. And then the second reason is the alleged 
imminent danger to the U.S. from Iraq's support for terrorism. 
That was the other reason given for us going into Iraq in the 
first place; isn't that correct?
    Dr. Kagan. Yes, although, again, there are other reasons 
why I supported the war that were different than the ones that 
the Administration laid out.
    Mr. Johnson. Bottom line, I think your testimony has been 
that the war in Iraq has acted as a cesspool of development for 
al Qaeda terrorist activity. And we have also been given a 
third reason once those two reasons came up empty for going 
into Iraq, and the third one was that we needed to create a 
democratic government in Iraq, correct?
    Dr. Kagan. Yes. That was another reason the Bush 
Administration gave us.
    Mr. Johnson. And we have not been able to create a 
democratic government in Iraq over the last 4-1/2 years for 
$400 billion and 3,000 American deaths; isn't that correct, Dr. 
Kagan?
    Dr. Kagan. We have not fully succeeded in establishing a 
democratic government even though we have had elections.
    Mr. Johnson. And I understand that we were told that the 
American invasion would be a cakewalk, and we would be greeted 
as liberators, and we could rebuild Iraq at a cost of $1.5 
billion a year, and that we would start reducing our troop 
strength, which would be down to about 30,000 troops by the end 
of 2003. And of course none of that has happened, and it looks 
like we are, according to you, Dr. Perry, involved now in a 
quagmire, I think is what you mentioned in your report which I 
have been----
    Dr. Perry. It is--it did not originate with me.
    Mr. Johnson. And quagmire is defined by the dictionary, I 
believe it was Webster's, an area of soft, muddy land that 
gives way underfoot. And also it says it is a marsh, and a 
``marsh'' is defined as an area of low wetland, a swamp. And it 
appears to me that we are embedded deeply in a muddy swamp, in 
a quagmire, and we are spinning our wheels. And there are those 
who would say that we need to increase troop strength by 22,500 
people, and that would suddenly enable the United States to do 
what it has been unable to do in the last 4 years or so.
    Would it be fair to conclude, Dr. Kagan, that the Bush 
Administration has bungled this war effort?
    Dr. Kagan. Congressman, I have been a consistent critic of 
the way the Bush Administration----
    Mr. Johnson. Would you say that?
    Dr. Kagan. Yes. They have made important mistakes in this 
war to date.
    Mr. Johnson. Actually now with those three things that were 
given as the reasons for going into Iraq now having been found 
to be erroneous, or actually two things, and then the third has 
been badly mishandled, badly executed, establishing democracy 
in Iraq, one could say that this was a mission that was doomed 
to fail from the outset because it was wrong in the first 
place.
    Dr. Korb, you stated in your report that at this point it 
looks like--bear with me. You said that Iraq now has more than 
300,000 members in its security forces which do not lack the 
necessary training to quell the violence. In fact, some of them 
have had more training than the young soldiers and marines the 
United States has sent to Iraq.
    Would you explain that statement, please?
    Dr. Korb. What I am saying there, people basically focus on 
the training. In my view, it is motivation. We are not asking 
the Iraqi military to take on the Soviet military and the 
planes of Europe. We are asking them to do police work. And 
basically I think the question really is do they want to do 
what they need to do? And as I pointed out, we take young men 
and young women, we send them to three months of training, we 
send them to war. So in many cases, some of the people there 
have had less training than some of these Iraqi units.
    And so that is my point. We are not asking them to do major 
conventional battles. We are asking them to do police work, go 
in and control the situation, and they simply don't want to do 
that.
    The Chairman. I thank the gentleman from Georgia.
    Let me inquire of our panel. I was told, Dr. Perry, you had 
to leave at 4:15.
    Dr. Perry. Yes, 4:15.
    The Chairman. I think we will proceed until 4:15. And I 
know some will not have the opportunity to ask questions, but 
we have done the best we could, and people have lived by the 
five-minute rule, so I compliment them.
    Mr. Franks.
    Mr. Franks. Thank you, Chairman Skelton, Ranking Member 
Hunter. Thank you, gentlemen, for being here.
    Sometimes in a complex debate it is important to return to 
the very basic equation and paradigm. And, Dr. Kagan, or is it 
Mr. Kagan, my first question is to you. Let me preface it by 
some comments Mr. Bush made in 2005. He said that militants, in 
this case talking terrorists, militants, insurgents believe 
that controlling one country will rally the Muslim masses, 
enabling them to overthrow all moderate governments in the 
region and establish a radical Islamic empire that spans from 
Spain to Indonesia. With greater economic and military 
political power, the terrorists would be able to advance their 
stated agenda to develop weapons of mass destruction to destroy 
Israel, to intimidate Europe, to assault the American people 
and to blackmail our government into isolation.
    Do you--Mr. Kagan, do you believe that that is a--at the 
time, 2005, those words were spoken and it represented 
essentially an accurate perspective of the intentions of 
terrorists including al Qaeda, and how that--has that changed 
today?
    Dr. Kagan. Well, I do believe that it demonstrated an 
accurate portrayal of their intentions. I think they expressed 
their intentions on a number of occasions going back to the 
1960's, and as recently as 2004 and 2005 in exchanges from al-
Zarqawi. I think that it is the intention of al Qaeda, I think 
that is the parallel intentions of the parallel movements in 
Iraq, and I think it remains the intentions of today.
    Mr. Franks. Thank you. I certainly believe that you are 
correct.
    Let me, if I might. There were some parallels made to 
Vietnam and some discussions surrounding Vietnam. Let me first 
say to you that I honor you for your service in Vietnam, for 
the courage that you showed, and for making the sacrifice that 
you did on the basis of trying to protect human freedom.
    And I would submit to you that it was not people like 
yourself that lost the war in Vietnam. It was people in the 
halls of this Congress that lost the war in Vietnam with the 
debate not so unlike some of the challenges that we are facing 
here today.
    With that said, when the Americans did withdraw from 
Vietnam, and I know there were great, great differences, the 
fact was that not thousands, not tens of thousands, not 
hundreds of thousands, but millions of people died, most of 
them innocent Cambodians. And we fought then an enemy that was 
not of the terrorist mindset, but that was of a Communist 
mindset that was committed to the slow domination of the world, 
and that culminated in the fact that the Soviet Union grew 
very, very strong, and if not for one Ronald Reagan that had 
the courage to stand up against them and see that collapse, I 
wonder where we would be today. Now, that is the only parallel 
I will make with Vietnam.
    I will say to you that I believe that if we fail in Iraq, I 
believe the implications are profound. I think if we succeed in 
Iraq, it could sow the seeds of freedom in that region and turn 
the whole of humanity in a better direction.
    Might I ask your perspective, if you think the President's 
plan here is defective, and you certainly have every right to 
do that, but if you do, can you give me or this panel your--
just your general plan of what might work to win in Iraq? And 
by that I mean by allowing the government enough strength to 
stand on their own; not stopping all the bombs, but enough to 
survive on their own so that what happened in Vietnam does not 
happen there.
    Dr. Korb. Congress didn't lose the war in Vietnam. I think 
it is very important to say that. The fact of the matter is you 
were trying to create two states where there was only one 
state. And we never had a government that we backed in South 
Vietnam that enjoyed the support of the people. It wasn't the 
fault of the people fighting the war. It wasn't the fault of 
the things done here. It was basically trying to do something 
that was impossible to do.
    Now, I have said here today, and I will say it again, that 
what we are talking about in Iraq has a certain semblance to 
Vietnam. Let me quote somebody who will surprise you, William 
Buckley, the editor of the National Review. He said, had we not 
left Vietnam when we did and realized that we couldn't achieve 
our objectives, we would have lost the Cold War. He also said, 
if we don't do the same in Iraq, we are not going to win the 
war on terror. And----
    Mr. Franks. Because I am out of time, what is your plan to 
win in Iraq?
    Dr. Korb. My plan basically is to win the war on terror. My 
plan is basically to make the best of a bad situation that was 
created by giving false reasons and then not doing it 
correctly. When General Shinseki told us how much we needed to 
stabilize the country after the overthrow of Saddam, we didn't 
follow that advice. Had we done it, I think things would have 
been better. So what I am saying is we are where we are because 
of decisions that have been made.
    Now, what you have to do, victory will be the Iraqis making 
those painful political compromises. And the best lever we 
have, in my view, is to set a date certain which will put them 
on notice and also the countries in the region that they are 
going to have to deal with the problem as well.
    The Chairman. I thank the gentlemen.
    Well, we almost made it. We have time for one more Member 
to question. And if it is any consolation to those that did not 
get a chance to ask questions, I have been there before, so I 
know just how you feel.
    So I will call on Ms. Gillibrand, and with that, we will 
thank the panel, and I will have a closing comment.
    Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you very much, Mr. Chairman, and 
thank you for coming to talk to us today about these very 
important issues. This was indeed the number one issue in the 
2006 elections, and we were all sent here to find answers, and 
you are helping us to do that.
    When we had Secretary Gates and General Pace come in to 
testify, both of them said that the President's plan could not 
work unless there was significant progress on the political and 
on the economic development of Iraq. And all of you have talked 
a bit about those issues.
    And I watch your impressions and thoughts on your best 
advice to the President right now on how to focus our efforts 
on the political and the economic front. Certainly, it has been 
discussed to have a congressional resolution saying that we 
won't have permanent bases in Iraq, and we won't have a claim 
on the oil as a way to set the stage for diplomacy.
    And we have also had discussion, and the President 
mentioned in his speech, the issue of the Iraqi oil revenues. 
We were unable to get clear answers in our last hearing about 
the current state of the oil revenues and how indeed they will 
be effectively transferred to the Iraqis, and then, once 
transferred, how they can be divided among the three sectarian 
groups, and then there can be some oversight to make sure that 
that is maintained.
    And second, the reconstruction contracts. Currently most of 
the reconstruction contracts are being handled by Americans; if 
we can shift them effectively to the Iraqis so their 20-year-
olds are rebuilding the roads and the schools and hotels and 
working to rebuild their own country.
    And then third, many of you talked about a regional peace 
summit to actually bring in our allies and countries that we 
are not necessarily allied with to begin to participate.
    Can you speak to how we can increase the likelihood of this 
transformation taking place, and what actions the President can 
take on your best recommendation to make this a possibility of 
success, because both the general and the Secretary of Defense 
said it can not succeed if we don't have movement on the 
economic and the political front.
    Dr. Perry. I think my best judgment on how we have our best 
chance of success in Iraq is really embodied in this Iraq Study 
Group report, which I helped write and whose recommendations I 
agree with.
    All three of the points that you made, I think, are things 
that are important to do and things that we could do. And, 
again, I emphasize that whatever we do there, the emphasis has 
to be on the political and economic--this problem cannot be 
solved by the military alone, certainly cannot be solved by the 
U.S. military alone, and every general that I have talked with 
has that view.
    Dr. Korb. I think we have to conclude this cannot be won 
militarily, so, therefore, you have to make the political 
compromise, as I have talked about.
    You also have to do more in improving the lives of Iraqis. 
We ought to allow them to do the reconstruction rather than 
have American or foreign firms do that. I would give money to 
the provincial governments allocated so the reconstruction 
money to the provincial governments is based upon them meeting 
certain criteria for doing things in their own districts, but 
get it down to the local level.
    One of the problems we have in Iraq is because we are such 
a powerful country, people there could not believe that we 
didn't do it right when we got there. They thought there must 
have been--you know, we must have done that on purpose. It 
wasn't the case, but that is what they believed.
    So I do think we have got to do those things, but I don't 
think anything will happen until the political compromises are 
made, because they are going to keep fighting until those 
things are done.
    Mrs. Gillibrand. One thing we agree on is giving the Iraqis 
a notice period about a redeployment and when that will take 
place, and allowing our military leaders to consult on what 
that time period will be. But do you agree that it is a way to 
incentivize the Shia, in particular, to come to the table to 
make compromises? Because right now we are protecting their 
government. We are building their security forces. Do you think 
that leverage actually would have an impact?
    Dr. Korb. I hope so, but I don't know any other leverage 
than we have right now. Look, Mr. Maliki dissed the President 
of the United States in Jordan. I mean, he dissed him. He 
didn't show up. Okay. He then, after the President gave a 
speech, didn't come out the next day to the press conference. 
Okay.
    So that is what I am saying to you. These are the people 
that our sons and daughters, husbands and wives are fighting 
and dying for, okay, and that is what concerns me. That is why 
I think we have got to put them on notice that this thing can't 
go on forever.
    Dr. Kagan. I must say, since I only have a few seconds, I 
am very concerned about the ethical position of attempting to 
incentivize people by threatening them with limitless genocide. 
I really do feel that when you start to talk about pressing the 
Iraqis to do things by threatening to withdraw forces and 
allowing it to collapse into chaos, I am very uncomfortable 
with the moral, ethical position that is entailed in that.
    Mrs. Gillibrand. Don't you think there is a difference, 
however, if you are using leverage to bring parties together to 
compromise?
    Dr. Kagan. If you are serious on carrying through on that 
threat, then I think you have to follow the moral and ethical 
argument all the way through.
    The Chairman. I thank the gentlelady, and I thank all of 
you for your patience. Sorry we didn't get to complete the 
entire list. But we are very grateful, Dr. Perry, Dr. Korb, Dr. 
Kagan, for your being with us. Some of the finest strategic 
figures are sitting right before us today. And we are very, 
very thankful for your testimony, for your straightforwardness, 
and for being of great assistance to us. You have been very 
helpful in helping tell about the challenges that we have in 
that sad country of Iraq, and we appreciate your being with us 
and the education that you have given us as well as the 
American people today.
    So with our gratitude, we will close the hearing. Thank you 
very much.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 17, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 17, 2007

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 17, 2007

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
